<html>
<title> - HEARING ON SNOW DISASTERS FOR LOCAL, STATE AND FEDERAL GOVERNMENTS IN THE NATIONAL CAPITAL REGION: RESPONSE AND RECOVERY PARTNERSHIPS WITH FEMA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                       SNOW DISASTERS FOR LOCAL,
                           STATE AND FEDERAL
                           GOVERNMENTS IN THE
                        NATIONAL CAPITAL REGION:
              RESPONSE AND RECOVERY PARTNERSHIPS WITH FEMA

=======================================================================

                                (111-98)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 23, 2010

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
55-670 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)








 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
RUSS CARNAHAN, Missouri              SHELLEY MOORE CAPITO, West 
TIMOTHY J. WALZ, Minnesota           Virginia
MICHAEL A. ARCURI, New York          MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
DONNA F. EDWARDS, Maryland           ANH ``JOSEPH'' CAO, Louisiana
THOMAS S. P. PERRIELLO, Virginia,    PETE OLSON, Texas
Vice Chair                           VACANCY
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)








                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Arcuri, Patricia, Acting Regional Administrator, FEMA Region III.    04
Beckham, Steward, Director, Office of National Capital Region 
  Coordination...................................................    04
Berry, Honorable John, Director, U.S. Office of Personnel 
  Management.....................................................    04
Hartmann, James K., City Manager, City of Alexandria, Virginia...    22
Kimsey, Carter, President, American Federation of Government 
  Employees Local 3034, National Science Foundation..............    04
Kubicek, David, Acting Deputy General Manager Operations, 
  Washington Metropolitan Area Transit Authority.................    22
Muth, Richard, Director, Maryland Emergency Management Agency, 
  testifying on behalf of National Emergency Management 
  Association....................................................    22
Petersen, Dr. R. Eric, Congressional Research Service, Library of 
  Congress.......................................................    22
Schwartz, Major General Errol R., Commanding General, District of 
  Columbia Army National Guard...................................    22
Williams, Millicent, Director, District of Columbia Homeland 
  Security and Emergency Management Agency.......................    22

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    55
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    56
Oberstar, Hon. James L., of Minnesota............................    59

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Arcuri, Patricia and Beckham, Stweard............................    63
Berry, Honorable John............................................    84
Hartmann, James K................................................    93
Kimsey, Carter...................................................   107
Kubicek, David...................................................   114
Muth, Richard....................................................   127
Petersen, Dr. R. Eric............................................   147
Schwartz, Major General Errol R..................................   157
Williams, Millicent..............................................   166

                       SUBMISSIONS FOR THE RECORD

Arcuri, Patricia, Acting Regional Administrator, FEMA Region III, 
  responses to questions from the Subcommittee...................    70
Berry, Honorable John, Director, U.S. Office of Personnel 
  Management:....................................................
Memorandum from Chief Human Capital Officer......................    88
      Responses to questions from the Subcommittee...............    90
Kubicek, David, Acting Deputy General Manager Operations, 
  Washington Metropolitan Area Transit Authority, responses to 
  questions from the Subcommittee................................   124
Muth, Richard, Director, Maryland Emergency Management Agency, 
  testifying on behalf of National Emergency Management 
  Association, responses to questions from the Subcommittee......   138
Schwartz, Major General Errol R., Commanding General, District of 
  Columbia Army National Guard, responses to questions from the 
  Subcommittee...................................................   164

                        ADDITIONS TO THE RECORD

WAMU 88.5 FM American University Radio, Caryn G. Mathes, General 
  Manager, letter................................................   171



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 HEARING ON SNOW DISASTERS FOR LOCAL, STATE AND FEDERAL GOVERNMENTS IN 
 THE NATIONAL CAPITAL REGION: RESPONSE AND RECOVERY PARTNERSHIPS WITH 
                                  FEMA

                              ----------                              


                        Tuesday, March 23, 2010

                   House of Representatives
      Subcommittee on Economic Development, Public 
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [chairwoman of the Subcommittee] presiding.
    Ms. Norton. Good afternoon and welcome to all, especially 
our witnesses, to today's hearing to address the status of 
recovery efforts following this winter's storms in the National 
Capital Region and the extent to which the Federal Emergency 
Management Agency is implicated. We also want to hear of the 
lessons learned from these severe storms that might apply to 
future disasters, regardless of cause.
    This season, the National Capital Region experienced an 
unusually high number, and severity, of winter storms. Between 
December 18 and 20, up to 20 inches of snow fell in the 
District of Columbia. According to the National Weather 
Service, this storm ranked among the top ten of all time, not 
only for the city, but also for the entire region, and was 
rated a Category 3 or ``major'' winter storm on the Northeast 
Snowfall Impact Scale, also known as NESIS.
    The December storm was quickly outdone in February by back-
to-back storms of blizzard proportions, which brought well over 
30 inches of snow in most areas of the District. The February 
storm was rated a Category 5 or ``extreme'' storm, the highest 
level on the NESIS scale, and only the third such storm in 60 
years here. Snow was as heavy elsewhere in the region or more 
so, with up to 26 inches in parts of Virginia and Maryland for 
the December storm, and a combined 50 to 60 inches in parts of 
Maryland for the February storms.
    Both storms had impacts that were demonstrably larger than 
expected in the Mid-Atlantic region, including the closing of 
schools, widespread property damage, and unusually severe power 
outages. The Metro bus and rail system, the backbone of our 
region's transportation system, had to cease or curtail service 
during these storms.
    All of these results of the snowstorms had serious effects 
on the operations of the Federal Government. The Federal 
Government was every bit as affected as the District of 
Columbia, Maryland, and Virginia. Thus, a disaster in the 
National Capital Region brings unique jurisdictional and 
operational challenges. Rarely, if ever, has a national 
disaster affected the heart of the Federal Government as the 
snowstorms of this winter have. Federal offices were closed for 
a day during December and for four days during the February 
snowstorms.
    We will be especially interested in the mitigation and 
response of the Federal Government, particularly questions 
raised that go to vital functions of the U.S. Government, such 
as security. We will assess the operations of the Federal 
Government during the snowstorms, both separately and as part 
of the National Capital Region, where it is the major job and 
economic sector. Closely related is the Metro rail and bus 
system, and how it was affected by FEMA and the region when 
there is a natural disaster. When Metro goes down, we know for 
sure so does the Federal Government.
    Most of our witnesses are charged with planning for all 
unusual or unforeseen events in the region. Their job is to 
prepare for, respond to, and ensure recovery from such events 
regardless of cause, and to mitigate their effects. In doing so 
they employ an ``all hazards'' approach, recognizing that while 
every disaster is unique, disasters have significant common 
elements. For example, the steps to plan for events such as a 
snowstorm or hurricane when residents cannot leave their homes 
are the same as for a pandemic or other incident when residents 
are told to stay in place.
    Today, the Subcommittee will be interested to hear about 
the approaches that Federal and regional personnel took in 
response to the December and February snowstorms and FEMA'S 
responses and work with all the affected jurisdictions since 
the snowstorms. We look forward to the testimony of all of 
today's witnesses and to discussing how the Capital Region will 
address previous and future disasters.
    Now, a vote has been called and the Ranking Member is here 
anyway. I am very pleased to see him. I was going to make my 
usual joke about why this Committee Chair will not be on the 
floor voting, but I will now turn to the Ranking Member and ask 
for his opening remarks.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman. I 
apologize for being a little bit late. Usually I am on time, 
but you now what it was? It was the elevators to get here; I 
just couldn't get an elevator.
    Ms. Norton. It wasn't a snowstorm, though.
    Mr. Diaz-Balart. It was not the snowstorm that we were 
talking about today.
    Let me just thank you again, Madam Chairwoman, for your 
leadership on so many issues, but always on issues that are on 
the forefront that have to be dealt with. The Chairwoman has 
been a leader in really effectively advocating for D.C. on a 
number of areas--she doesn't let us forget--and always working 
to ensure that our Nation's capital is properly prepared for a 
disaster, again, whether it is a blizzard or a terrorist attack 
we hope will not come. So again I want to thank her for her 
work and her leadership.
    In December, the National Capital Region was hit by a huge 
snowstorm resulting in, frankly, a major disaster declaration. 
I think it surprised everybody. Then in February this area was 
hit by a back-to-back storm that broke all snowfall records, is 
my understanding. Some parts of the region had more than three 
feet of snow. The Federal Government shut down, I guess it was 
four days, which is, frankly, without precedent. Businesses and 
stores closed, and those which didn't close, which remained 
open, could not get supplies to replenish their shelves. The 
above-ground stations for Metro rail shut down and there were 
no Metro bus services for days. Roofs and homes and businesses 
even were damaged or collapsed, and mail delivery was even 
impacted. And, obviously, hundreds of thousands lost power and 
heat. And the schools across the area were shut down, as many 
streets and sidewalks were totally impassible by anyone in the 
area.
    So while today we are focused on snow disasters, we know 
that the all hazards approach to disasters, we can take the 
lessons learned from this experience to improve on the 
emergency management capabilities of this area to prepare not 
only for a snowstorm, which we hope will not come again for a 
long time, but for any future disasters. It is something that 
we have been speaking in this Committee for a long time.
    So in the D.C. area in particular emergency management can 
be very, very complex. As our capital, the Federal Government 
has a large presence, and its decisions during disaster here 
can have a significant impact on the planning and response of 
State and local governments in the entire region. For example, 
the decisions of OPM as to whether or not to close the Federal 
Government impact local plans for clearing streets, for 
emergency response, and also, if necessary, even for 
evacuations. So, again, it is a huge impact. With dozens of 
Federal law enforcement agencies operating in the area, Federal 
coordination with State and local first responders in a 
disaster obviously becomes a lot more critical.
    It obviously will be important, Madam Chairwoman, today to 
examine how well coordinated and how the coordination worked 
among all levels of the Government, and what are the lessons, 
if any--and I am sure there were many--that we can learn from 
that. So I hope we can examine these and other issues. I thank 
the witnesses for taking from your valuable time being here 
today. We do not take that for granted. We thank you for that.
    And once again I want to thank the Chairwoman for her 
leadership in advocating for D.C. But when we look at what 
happened recently, the impact actually really goes beyond D.C., 
and what can be learned here can be applied obviously in other 
parts of the Country and vice versa. So thank you very much. 
And I know that they did call a vote, so I will have to step 
out again, but then I will return. Than you.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart. And you 
are right, it certainly affected the Nation's capital. But when 
I wrote to FEMA, I wrote for the entire region, where the 
Federal Government is headquartered, and it is in fact the 
effect on the Federal Government that is as much the reason for 
this hearing as on the local jurisdictions. And, of course, we 
are interested in FEMA and how FEMA is relating to the local 
jurisdictions, including the benefits that the local 
jurisdictions are entitled to because of the storms.
    I am going to ask the witnesses to speak in the order in 
which they are sitting at the table, beginning with Ms. Arcuri. 
Patricia Arcuri is the Acting Regional Administrator of FEMA 
Region III.

 TESTIMONY OF PATRICIA ARCURI, ACTING REGIONAL ADMINISTRATOR, 
FEMA REGION III; STEWARD BECKHAM, DIRECTOR, OFFICE OF NATIONAL 
    CAPITAL REGION COORDINATION; THE HONORABLE JOHN BERRY, 
   DIRECTOR, U.S. OFFICE OF PERSONNEL MANAGEMENT; AND CARTER 
KIMSEY, PRESIDENT, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES 
            LOCAL 3034, NATIONAL SCIENCE FOUNDATION

    Ms. Arcuri. Thank you. Good afternoon, Chairwoman Norton, 
and good afternoon, Ranking Member Diaz-Balart. I am Patricia 
Arcuri. I am the Acting Regional Administrator for the Region 
III Office of the Federal Emergency Management Agency. I am 
here today with Mr. Steward Beckham, the Director of FEMA'S 
Office of National Capital Region Coordination. Thank you for 
the invitation to appear before you today to discuss the recent 
snow disasters in the National Capital Region and FEMA'S 
coordination and support of the National Capital Region for all 
hazards.
    As the Acting Regional Administrator, I oversee and 
coordinate FEMA'S all hazards preparedness and emergency 
management efforts in Delaware, the District of Columbia, 
Maryland, Pennsylvania, Virginia, and West Virginia. These 
efforts include developing, implementing, and executing FEMA'S 
programs and initiatives in close coordination with a strong 
team of partners from all levels of government, volunteer and 
faith-based groups, and the business community. I am pleased to 
say that ours is a strong, capable, and responsive region.
    Helping me to carry out my duties are 116 dedicated full-
time employees, along with 500 intermittent disaster assistance 
employees. The regional office has six divisions: Response, 
Recovery, National Preparedness, Mitigation, Mission Support, 
and the Office of the Regional Administrator. A defense 
coordinating element from the U.S. Army North is located with 
us in Philadelphia, providing expertise and support to our 
planning, response, and recovery efforts.
    Prior to and during an event, I coordinate FEMA'S programs 
and provide technical assistance to our States and the 
District. Should the President issue a Stafford Act declaration 
for a particular emergency or major disaster, a Federal 
coordinating officer will be named to direct Federal response 
and recovery activities in the affected jurisdictions. In the 
National Capital Region, there is an experienced Federal 
coordinating officer, his name is Regis Phalen, and he is 
assigned to the District of Columbia, Maryland, and Virginia 
for the recent snow declarations.
    In response to the December and February snowstorms, FEMA 
Region III's operations began with the deployment of a FEMA 
liaison to the District and emergency operation centers at the 
State and District levels, as well as the activation of the 
Regional Response Coordination Center in Philadelphia. Response 
personnel provided 24-hour coverage as the States and the 
District were engaged in emergency activities.
    State and District emergency staff supplied constant 
updates and effectively shared real-time information with us. 
We hosted several conference calls with State and local 
officials to discuss the impacts of the storm and to answer 
questions about potential available Federal assistance. In 
addition to daily calls with the State Emergency Management 
Directors, we also reached out to the District's mayor's office 
and the Baltimore Emergency Management Director.
    From a preparedness perspective, we maintain strong 
relationships with the District, State, and local emergency 
management community. These relationships are cultivated 
through monthly conference calls with the directors of the 
emergency management agencies. We also host regional 
interagency steering committee meetings semiannually for 
Federal, State, ad District officials to plan for all hazards 
in the Region III jurisdictional area. Last week, our risk 
meeting focused on a regional response to a chemical, 
biological, radiological, nuclear, or high-yield explosive 
event. Overall, these meetings have created an understanding of 
the various agencies' roles, responsibilities, and restrictions 
in a pre-disaster or disaster scenario.
    I also lead the Region III's Regional Advisory Council, 
consisting of 22 State and local emergency managers throughout 
the Mid-Atlantic Region. The Council meets twice a year to 
discuss issues pertaining to emergency management. Emergency 
Management Directors Millicent Williams and Richard Muth are 
Council members, as well as the director of the Virginia 
Department of Emergency Management. As an example of our all 
hazards planning efforts, we have an important role in national 
special security events. FEMA Region III and the Office of 
National Capital Region Coordination have supported the U.S. 
Secret Service in its roles as the lead Federal agency for the 
56 presidential inaugurations and the G-20 event summits in 
Washington, D.C. Currently, we are working to plan for the 
nuclear security summit in April.
    The Region III office routinely works in conjunction with 
the Office of National Capital Region Coordination to ensure 
seamless collaboration with the National Capital Region to 
understand and respond to any challenges faced in the National 
Capital Region, and to anticipate resource and information 
needs leading up to, during, and following a disaster event.
    In conclusion, we understand that the National Capital 
Region is unique in that it is the seat of our Government, and 
for that especially we are planning and exercising with our 
State and District partners for the unexpected.
    Thank you. We look forward to working with the Subcommittee 
and all of our stakeholders, and I would be pleased to take any 
questions.
    Ms. Norton. Thank you, Ms. Arcuri.
    Steward Beckham, Director of the Office of the National 
Capital Region Coordination. Mr. Beckham.
    Mr. Beckham. Good afternoon, Madam Chair. I am the Director 
of Federal Emergency Management Agency's Office of National 
Capital Region Coordination, and I appreciate the opportunity 
and the invitation to join my colleague, Patricia Arcuri and 
OPM Director John Berry to testify before you today.
    The National Capital Region Coordination was established by 
the Homeland Security Act of 2002, Section 882, to oversee and 
coordinate Federal programs for and relationships with State, 
local, and regional authorities within the National Capital 
Region. Among others, Congress directed NCRC to coordinate with 
Federal, State, and local officials and the private sector to 
enhance domestic preparedness and to provide information to its 
State and local partners. Along with other preparedness 
offices, NCRC was transferred to the Federal Emergency 
Management Agency in 2007.
    The NCRC actively works with regional partners to enhance 
preparedness efforts within the region. On a daily basis, NCRC 
interacts with our Homeland Security partners within various 
coordination venues that have been established for this 
purpose. One example is the Senior Policy Group, SPG, which is 
comprised of the Homeland Security advisors and chief emergency 
management officials from Virginia, Maryland, and the District 
of Columbia who represent their chief executives in 
jurisdictions. I am a member of the Senior Policy Group as 
well. The Senior Policy Group plays a key role in sustaining a 
coordinated regional approach to homeland security and 
strengthening integrated decision-making and planning.
    A second example is the Joint Federal Committee, JFC. The 
JFC and its associated Subcommittees provides a forum for 
policy discussions and information sharing regarding Federal 
preparedness, planning, training, and exercise activities in 
the NCR. The JFC serves as a conduit linking the Federal 
Interagency Committee with important information about and 
contacts within region, State, and local governments. Within 
the NCR, Federal, State, and local authorities have developed a 
regional snow plan which is supported by the Metropolitan 
Washington Council of Governments, MWCOG. MWCOG is a regional 
organization of Washington area local governments.
    This snow plan is updated and briefed to all State, local, 
and Federal regional partners prior to each winter season. The 
snow plan discusses and informs them of the processes and the 
information that will be shared during a winter weather 
incident. When a significant snow is anticipated in the region, 
a conference call is initiated and led by MWCOG to discuss the 
weather forecast and anticipated actions. These calls may be 
held several times during the day, depending on the severity of 
the situation. During these calls, the weather service, 
transportation entities, and others share information in order 
to increase situational awareness and support decision-making 
regarding the status of Federal, State, and local governments 
within the NCR.
    Throughout the 2009-2010 winter season, NCR participated in 
these MWCOG snow calls. We also participated in the District, 
Homeland Security, and Emergency Management Agency, DCHSEMA, 
calls that they hosted and led. Following each call, the latest 
information was provided to our partners through the NCR spot 
reports. There are about 50 recipients of these spot reports, 
including Federal, State, and local authorities who have chosen 
to receive updates from the NCRC.
    The Office of National Capital Region Coordination's 
activities allow us to contribute to FEMA'S broader efforts to 
improve and maintain relationships with State and local 
partners in order to support all hazards preparedness within 
the NCR. As with any FEMA employee, we are subject to on-call 
duty for any disaster or event that may occur in support of 
FEMA'S mission.
    I look forward to addressing any questions that you may 
have. Thank you very much.
    Ms. Norton. Thank you for your testimony, Mr. Beckham.
    John Berry, the Director of the U.S. Office of Personnel 
Management and my good friend. Glad to see you here, and hope 
you bring good news, Mr. Berry.
    Mr. Berry. Thank you, Madam Chair, and thank you for your 
leadership.
    Ms. Norton. We have known each other for a long time, so 
you will have to forgive these asides.
    Mr. Berry. I won't tell anyone how long, Madam Chair.
    I appreciate your leadership in holding this hearing today 
and I am very honored to be at this table with the 
distinguished panel that you have assembled.
    The snow storms of the winter of 2009 and 2010 brought, as 
you have mentioned, unprecedented snowfalls to the National 
Capital Region, essentially the highest since we began 
recording snows over the course of the winter since 1883.
    OPM has always worked with a network of stakeholders at 
both the Federal, State, and local levels to make decisions 
during weather-related emergencies. OPM maintains a 24-hour 
round-the-clock operational center to actively monitor and 
manage unfolding events, weather or otherwise, which could 
adversely impact Federal Government operations in the National 
Capital Region.
    To give a quick overview of the procedures, as emergency 
events arise, just as Steward has mentioned, OPM participates 
in the conference calls that are hosted by the Council of 
Governments in the region in order to assess conditions. 
Participants in the call include the weather service, the 
National Weather Service, FEMA, all of our State and local 
emergency management agencies, the city and suburban transit 
agencies, Departments of Transportation throughout the region, 
all levels of law enforcement, utility companies, and school 
districts. In weather events that occur during the overnight 
hours, these COG calls typically occur at 3:30 in the morning 
with over 100 attendees. Ultimately, OPM's decision is made to 
carefully balance the safety of our Federal workforce and the 
public with the cost of the closure.
    Following the COG call, my OPM staff and I evaluate the 
information provided on road, transit, and other conditions. We 
analyze historical decisions that were made in similar 
circumstances, and then I ultimately make a final decision. 
That decision is disseminated no later than 4 a.m. to all 
agencies and the media. If conditions for the next day are 
clear the night before, the announcement can be made earlier. 
During this latest snow event, decisions on closures were 
routinely announced by 7 p.m. the evening before.
    On the whole, we believe the process worked and worked 
well. To analyze it and learn how we can do even better next 
time, the Council of Governments, along with FEMA and us, will 
be hosting an after-action review on April 5th, and we will be 
an active participant at that process.
    We have also entered into a great partnership with FEMA 
here in the National Capital Region. Since the tragic events of 
9/11, a variety of efforts have been undertaken to improve the 
emergency preparedness of our region. Our long-term goal is to 
test our region-wide preparedness through a real-time 
evacuation like that which occurred on September 11th. Such an 
effort, however, is not an easy feat, and so we have begun a 
very detailed planning process.
    While we work to achieve this goal, there are steps we can 
take in the meantime. Last spring, for example, we sponsored a 
town hall meeting with Federal, State, and local management 
officials to educate Federal employees on the various 
evacuation routes and plans throughout the region. We also 
conducted an emergency management and crime prevention fair. 
Our last event was with Steward and FEMA, where we jointly 
exercised a table-type exercise for Federal emergency managers 
throughout the region to test occupant emergency plans and 
evacuation capabilities and protocols.
    Prior to the start of the winter season, the National 
Weather Service predicted that this could be a particularly 
snowy region. To help prepare both our workers and the 
community, OPM conducted a press conference, together with all 
of the players we have already mentioned, to explain this 
process to the region and reaffirm our commitment to make 
decisions no later than 4 a.m. in the morning. Telework 
capabilities are a key aspect in responding to weather 
situations, as well as in continuity of operations planning 
generally. OPM has set a strategic goal of increasing the 
number of Federal employees who are eligible for telework by 50 
percent before 2011. While our Federal offices were closed, 
Federal employees rose to the challenge and continued to work, 
making very good use of telework and other work flexibilities.
    While we are not able to isolate all of the numbers, during 
the snow event 30 percent of OPM and General Services 
Administration employees logged on to their respective 
networks. Our request for information on remote access during 
the storm to chief information officers throughout the 
Executive Branch revealed similar log-on rates. After the 
storms, we did a data analysis looking at the lost productivity 
throughout this, and taking our savings and the savings into 
account, the formula number that you have often heard quoted of 
$100 million a day we hereby declare as out of date, and we are 
updating that as the estimated cost now being $71 million a 
day. This figure confirms the real-time data we received, which 
suggests that at least 30 percent of Federal employees worked 
during the snow days, mostly from outside the office. We 
believe this is actually a very conservative estimate and the 
actual number may have been much higher.
    We are strongly committed to raising that percentage in 
line with our strategic goal. I believe we can overcome 
managerial resistance and IT barriers, our two top stumbling 
blocks to making telework effective government-wide. We started 
working on this following up through many of the programs that 
you and the Committee have put into place. Your leadership has 
been outstanding, and we will not rest until this is a regular 
way of doing business in the Federal Government.
    Finally, in partnership with the White House Task Force on 
Telework, which I chair, and the General Services 
Administration and the U.S. Patent and Trademark Office, we 
held a Telework Leadership Thought Forum earlier this month. 
The Forum had 60 participants government-wide, including 
representatives from labor and management, and they gave us a 
lot of great ideas that we will be able to work on going 
forward. I believe that we can move telework forward to the 
point where snow emergencies are relatively small disruption, 
and, instead of closure, we can simply declare a mobile work 
day.
    Thank you for holding this important hearing. I will be 
happy to answer any questions that you might have.
    Ms. Norton. Thank you very much, Mr. Berry.
    Our final witness on this panel is Carter Kimsey, the 
President of the American Federation of Government Employees 
Local 3034, and she works for the National Science Foundation. 
Ms. Kimsey.
    Ms. Kimsey. Thank you, Madam Chair and Members of the 
Subcommittee. On behalf of more than the 600,000 Federal and 
District of Columbia workers represented by AFGE, thank you for 
the opportunity to testify today.
    Whether or not the snowstorms in the winter of 2010 in our 
area deserve the label ``disaster,'' they did make 
transportation to and from many Federal workplaces unsafe, 
impractical, and, in some cases, impossible. We believe that 
OPM acted prudently when it either closed or delayed the 
opening of Federal offices in the Metro D.C. region. Hundreds 
of thousands of workers were without power, had no access to 
public transportation, could not drive their own vehicles 
because neither side streets nor main roads had been plowed, 
and could not walk because sidewalks had not been shoveled or 
else were impassible by mounds of plowed snow. We can 
reasonably expect that the future will include challenges that 
resemble this year's extreme weather, and it is therefore 
incumbent upon the Federal Government to put in place clear 
policies that will allow the greatest possible continuity of 
operations.
    There is one obvious answer to this question, and it is to 
put in place the material and policy infrastructure to vastly 
expand telework for Federal employees. Telework helps agencies 
find more efficient means of carrying out their missions in 
both normal and emergency situations, and it allows workers to 
balance better their work and family responsibilities. 
Experience in the Federal and private sectors has proven that 
effectively managed telework programs strongly support 
workforce recruitment and retention, manage office space and 
overhead costs, and address environmental and energy concerns, 
and they provide an invaluable means for continuity of 
operations during an emergency.
    Madam Chair, several weeks ago I represented AFGE at the 
OPM-sponsored Thought Forum on Telework that you have just 
heard about, where Director Berry brought up the concept of a 
mobile work day rather than closing Government offices and 
using unscheduled leave. This is an excellent idea and needs 
further exploration.
    Another idea is to require managers to determine, before a 
job announcement is posted, whether and to what level telework 
opportunities would be available to the employee hired for the 
position. Making telework the norm for the Federal workforce 
can improve working conditions and guarantee continued 
operations, despite the weather.
    AFGE supports telework legislation introduced by 
Representative John Sarbanes, H.R. 1722, requiring that all 
Federal workers be considered eligible for telework unless the 
agency shows they are ineligible. Under current law, Federal 
workers must overcome the presumption that they are ineligible 
for telework unless the agency determines otherwise.
    AFGE members working at agencies with established telework 
programs, such as the Center for Medicare and Medicaid Services 
and the Citizenship and Immigration Services, report that those 
agencies have self-imposed an arbitrary cap on the number of 
workers allowed to participate in telework. At my own agency, 
the National Science Foundation, although we have succeeded in 
negotiating a telework program, the Union was forced to trade 
off the right to file any grievances on the matter, regardless 
of their merit. This makes it impossible to ensure that 
telework is applied fairly and uniformly to the workforce.
    Aside from telework, AFGE has tried, with mixed success, to 
negotiate collective bargaining agreements that address how to 
proceed in disasters and emergencies. In those cases where we 
have not persuaded agencies to agree to contract language, AFGE 
is proposing language that clarifies and makes consistent 
agency policies regarding emergencies and disasters. At the 
Social Security Administration, we are attempting to bargain 
language that would require the agency to follow OPM guidelines 
for disasters when evacuation occurs, such as pay continuation. 
AFGE's Social Security Administration locals situated in 
earthquake zones have negotiated shelter and place agreements 
that include earthquake and shelter kits and require periodic 
earthquake drills.
    In other agencies, employees are required to be at work not 
because they are essential to the provision of public safety, 
but because the agency's clients must meet legal deadlines. 
This type of issue has arisen at EEOC, where employees must 
come to work under even extremely adverse weather conditions in 
order to make time frames for filing charges. Outside of the 
D.C. area, EEOC regional directors have discretion to decide 
issues such as office closings and delayed openings.
    The problem with giving individual regional or local agency 
heads discretion to go it alone with respect to treatment of 
employees does lead to problems. As you know, the 
transportation security officers at Dulles and Philadelphia 
Airports were counted as AWOL when they couldn't get to work 
during the snowstorms.
    I think I have exceeded my time.
    Ms. Norton. Thank you very much, Ms. Kimsey. You mentioned 
employees who were AWOL when they couldn't get to work. Are you 
talking about TSA employees?
    Ms. Kimsey. Yes, ma'am, I am. That was at Philadelphia and 
Dulles. Whereas, at Thurgood Marshall BWI Airport and Reagan 
National, the managers there realized the import of the 
situation, that it was truly an emergency, and they did not put 
their employees on AWOL. There are times when employees need 
administrative leave during an emergency.
    Ms. Norton. Now, Mr. Berry, I can certainly understand that 
agency-by-agency there must be a considerable amount of 
discretion, but when you have, in essentially the same region, 
with the same amount of snowfall, directors, agency heads 
making very different decisions, how can OPM justify discretion 
that in fact is that broad? And why is not there in place 
something, when we are talking about people in essentially the 
same region--I mean, Philadelphia, for example, many of the 
regional offices for this part of the region at in 
Philadelphia--why wouldn't there be overall guidance so that 
the workforce wouldn't feel that it was treated unfairly and so 
that you didn't receive what I am sure had been a fair amount 
of feedback about uneven treatment as among employees doing the 
same work?
    Mr. Berry. Madam Chair, I think it is a great question. 
There are sort of two levels to respond to. On one, in terms of 
the policy approach, the policies in terms of management and 
pay and those delegation, are consistent throughout the 
regions. Now, the employees that we described, that would have 
been described at the airports would have been defined most 
likely, I presume, as emergency personnel, right?
    Ms. Kimsey. That is correct.
    Mr. Berry. So emergency personnel, regardless of where 
their work location is, regardless of what the event is, the 
rules of the road are they need to show up. In other words, 
they have designated by their agency that----
    Ms. Norton. What does OPM do, in the face of two feet of 
snowstorms, to make sure that employees who indeed the United 
States of America does need get to their destinations when 
their own States haven't cleared the way for them to move?
    Mr. Berry. It is tough. Many need to come on foot. I, for 
example, came to work on foot. Other employees who are 
designated emergency need to show up. They are providing 
emergency public health and safety functions and they often put 
themselves--and we recognize they are putting themselves at 
risk.
    Ms. Norton. Mr. Berry, where do you live? Where do you 
live?
    Mr. Berry. 16th and R. That was a two mile walk. I do it 
regularly.
    Ms. Norton. Well, try walking to Dulles from 16th and R.
    Mr. Berry. I understand.
    Ms. Norton. No, I understand what you are saying. Indeed, 
let me ask you who defines what an emergency worker or employee 
is?
    Mr. Berry. Each agency has that authority to define what 
employees are forced to report for work regardless of----
    Ms. Norton. Now, that discretion, of course, needs to 
remain with the agency. I think we all would agree. Just let me 
ask you in the wake of a presidential disaster, should the 
agency do some investigation as to whether or not the employee 
was able, physically able under any circumstances, to reach the 
agency before docking that employee's pay or otherwise 
sanctioning that employee?
    Mr. Berry. That, Madam Chair, is obviously a very good 
case. We would encourage, obviously, managers to use good 
common sense and good practice, and we will be working through 
the complaints and the charges throughout this very complicated 
region doing this. How it often works in terms of the real 
world is even employees who have been designated as emergency, 
if, for example, they can't get in, their street is impassible, 
it is unsafe, for example, for that employee, what is expected 
and required is that they contact their supervisor, and their 
supervisor, that way, is at least informed of what workforce 
they can assemble to try to carry out the essential functions. 
So oftentimes people will trade, they will trade shifts, they 
will ask other people who might live closer, for example, 
myself, who can walk in, to ask those people to come and cover 
for those who might be too far away to get there.
    So a good manager works with their employees to try to 
address the situation and provide the flexibility you are 
discussing. Now, obviously, I can't sit here in front of you 
and say that every manager is a good manager and makes good 
decisions every day of the year. And where that occurs, we will 
work with those agencies to try to make sure that a fair 
common-sense rule is applied throughout the agencies.
    Ms. Norton. Well, I appreciate that, Mr. Berry. And 
remember this hearing is being called in no small part because 
of the all hazards rule of how we must operate, and it scares 
me a bit that agencies have not already mapped out who can get 
in and who cannot, because the hazard that we are most afraid 
of in this region, frankly, is not a snowstorm, but some kind 
of event, which will mean that somebody has to be on hand; and 
if employees stay at home, they stay at home because they have 
gotten no guidance, the kind of guidance that you have 
indicated.
    I am going to ask you if you would ask agency heads to in 
fact do an inventory of their employees to see who might 
reasonably be expected to trade off and come in with somebody 
who can't possibly come in, so that we learn from this disaster 
and don't simply repeat it in a disaster that may be far more 
costly in human life and injury.
    Ms. Arcuri, I would like to ask you----
    So could you get us some sense, Mr. Berry, in 30 days, of 
how you will inform the agencies of the necessity in 
preparation for whatever is the next event, to make sure that 
at least some of their employees--now, the others will have to 
make up for it, but that is how employees are. Federal 
employees bond together, particularly those who are unionized. 
They bond together and they understand that X lives someplace 
and Y lives the other. Mr. Berry, we may have to ask you to do 
some jobs that would otherwise not be done by OPM. That is the 
kind of Federal family we have, I know.
    Ms. Arcuri, I am most interested in the role of the Federal 
Government in a disaster like this. Now, we know that the 
Federal Government--I am on the Homeland Security Committee, so 
Homeland Security Committee is prepared for all kinds of things 
to happen to us. But we haven't been prepared for a snowstorm, 
even though we deal with all hazards. Therefore, we haven't 
thought deeply, at least on the Committee on which I serve, 
about FEMA'S role when the Federal Government has a stake in 
its heart, and I wonder what kind of mitigation planning, 
continuity planning goes on in the Federal Government or 
whether FEMA has anything to do with that or who is responsible 
for that.
    Ms. Arcuri. Madam Chair, separating the different 
functional parts of your question, we do have a plan, and our 
plan is basically the same as you said, whether it is a 
snowstorm, whether it is an impending flood, a pretty 
identifiable----
    Ms. Norton. With the Federal Government. I am now talking 
about the Federal Government, which obviously knows what to do 
if somebody lets loose with an explosive device and what would 
kick in in that notion. And I know that FEMA deals in 
mitigation with various jurisdictions before an event and, of 
course, it deals after an event.
    What I am trying to find out is whether or not the Federal 
Government is involved with the mitigation activities, the 
response activities that we will find in local jurisdictions 
across the Country in preparation for events just like this 
event, a natural event. It could be a hurricane here, because 
we do have those here. Does FEMA have any role with the Federal 
Government or is there somebody else who helps the Federal 
Government understand what the States commonly understand is 
their role in natural disasters?
    Ms. Arcuri. I would have to defer that question to my 
colleague, Mr. Beckham----
    Ms. Norton. Mr. Beckham, than you.
    Ms. Arcuri.--from the Office of National Capital Region 
Coordination with the other Federal entities in the region.
    Mr. Beckham. Madam Chair, here in the National Capital 
Region, as you well know, we have all the various Federal 
agencies, as well as the Legislative and Judicial Branch, and 
we commonly and consistently reach out to those various 
agencies, primarily through our Joint Federal Committee, and 
have representatives come forward----
    Ms. Norton. Joint Federal Committee?
    Mr. Beckham. The Joint Federal Committee, which is 
comprised of the emergency managers from the various Federal 
agencies. We meet monthly and we come in and collaborate and 
coordinate programs and share information. Obviously, as a 
result of the events that occurred during this past winter 
season, we have and continue to discuss our issues in terms of 
coordination and preparation for the all hazard events. 
Obviously, this is a natural event, the snowstorm, but in a 
very similar or large measure the types of activities that we 
would undertake would be similar to the ones that would occur 
in a manmade----
    Ms. Norton. For example, what did you do with the Federal 
Government when it became clear that we were having something 
of a natural disaster here?
    Mr. Beckham. Well, I think it is safe to say that we 
obviously listened to and relied on and coordinated with OPM in 
terms of what would happen to the Federal workforce here in the 
National Capital Region.
    Ms. Norton. Did you have anything to do with them? Yes, but 
OPM is not an expert agency in natural disasters, and OPM, if 
anything, is going to be looking to folks like you. For 
example, the Metropolitan Washington Council of Government puts 
out calls. Were you in on these calls, Mr. Berry?
    Mr. Beckham. I misunderstood your question. I thought you 
were referring to what was done immediately prior to the winter 
storms that occurred and how we operated in accordance with 
that.
    Ms. Norton. Immediately prior, during.
    Mr. Beckham. As I mentioned in my testimony, particularly 
for the winter season, we get together through the COG to go 
over the policies and procedures that are in place for the 
winter storms.
    Ms. Norton. So you were on the calls with COG?
    Mr. Beckham. Yes, ma'am.
    Ms. Norton. And, of course, OPM. Were the unions on the 
call with COG?
    Mr. Beckham. I can't testify to that; I don't know exactly 
who was on the call.
    Ms. Norton. Mr. Berry?
    Mr. Berry. No, I don't believe so, Madam Chair.
    Ms. Norton. Wouldn't it have been helpful? Wouldn't they 
have had more information so that workers wouldn't be all 
disconcerted and confused? After all, they did get a day off. 
Is there any reason why they shouldn't be? I mean, with the 
President's new order that there be collaboration with 
employees, wouldn't that be helpful?
    Mr. Berry. The one thing we would have to discuss, and we 
would have to discuss this with the other members of the 
Council of Governments and others, these calls are not open to 
the public; they are there so that everybody can give an exact 
and accurate information----
    Ms. Norton. Were you in touch or anybody in touch with the 
organizations who represent workers after the calls were over?
    Mr. Berry. Absolutely. And before and during the entire 
event. We were in touch with the three major Federal employee 
unions in the region throughout the event. And once the 
decision is made, it is disseminated very effectively and we 
also rely on our union partners to help us get that word out to 
their members. So we do stay in close communication.
    Ms. Norton. Well, Ms. Kimsey, I was concerned about your 
testimony. I am the former chair of the Equal Employment 
Opportunity Commission and, therefore, I do understand that the 
time frames for filing charges are important, but I was 
concerned at your testimony about workers having to be there. 
First of all, how could people get there to file charges? And 
if they were filing charges technologically, why couldn't some 
employees at home have taken care of that? And would you 
explain exactly what it is the EEOC required of these employees 
during the disaster?
    Ms. Kimsey. Yes, ma'am.
    Ms. Norton. Now, I take it during the blizzard as well, the 
February blizzard as well as the December storm?
    Ms. Kimsey. Yes, that is true. What I would like to say is 
I think the Honorable Berry, sitting right here next to me, 
made an excellent point----
    Ms. Norton. He is a very honorable gentleman.
    Ms. Kimsey.--that we have two barriers to telework. The 
first one is management resistance and the second one is 
technology.
    Ms. Norton. Let me ask you are any employees at EEOC on 
telework?
    Ms. Kimsey. I don't have that number, but I would be happy 
to follow up with you on the exact number. I can do that.
    Ms. Norton. Some of them could take charges, you think, 
from telework?
    Ms. Kimsey. Well, that is the question. We certainly think 
that technology could be maximized at that agency and other 
agencies to allow the maximum telework----
    Ms. Norton. Wait, wait. Mr. Berry has a response.
    Ms. Kimsey. He does.
    Mr. Berry. Excuse me. I was just going to add, Madam Chair, 
it is not at EEOC, but I do have another example which gives 
you just how far we can go with this. The Patent and Trademark 
Office, which is just over across the river in Alexandria 
there, they maintained their productivity level. Their normal 
productivity level on a day is about 95 percent. During the 
snowstorm, during the blizzard, because of telework, they 
maintained 85 percent productivity rate. So a phenomenal 
example of how people work safely from home, they didn't 
jeopardize their health or their community, and it was a great 
way to maintain continuity of operations. So I think we have a 
great example in the Patent and Trademark Office.
    Ms. Norton. We do with some exceptions. Of course, 
confidentiality is necessary at Patent and Trademark too, but 
they are certainly statutorily required at EEOC. You are 
dealing with people who are filing legal complaints, and it is 
the same as a lawyer-client relationship.
    And I recognize, Ms. Kimsey, that they may not be to the 
point that we would like them to be with respect to telework, 
but let's assume the present state of affairs. So somebody 
doesn't plow some money in there and get them so that they can 
be brought up; and we can understand that given the present 
state of the economy.
    I still don't understand that at the height of the 
blizzard, when people couldn't get in to file complaints, 
perhaps they could at regional offices, but I am trying to 
understand here and in the region where, of course, the 
blizzard had occurred, why the agency would insist that 
employees be there if the very people who were to file the 
complaints would hardly have been able to get there. I am 
really at a loss here about what was required, what workers 
were told to do, and what it means to have time frames for 
filing, whether they are agency time frames or whether they are 
statutory, if they are talking about the 180 days or the 90 
days, etcetera.
    Ms. Kimsey. Yes, ma'am. And I would be happy to follow up 
with you on that. I am not myself an employee of the EEOC, but 
I know that there have been some issues in the regional offices 
as well, and we would be happy to provide that information to 
you very quickly.
    Ms. Norton. Well, this is important because there are 
statutory time frames.
    Ms. Kimsey. And I believe that this does refer to the 
statutory time frames, which then would suggest that the 
employees need the tools to help them operate within those 
statutory time frames.
    Ms. Norton. I also think there is something like called an 
act of God.
    Ms. Kimsey. Yes.
    Ms. Norton. I cannot believe that when Louisiana went down, 
for example, the Gulf Coast went down--and, again, I am not 
sure how we deal with precedence in this world. But the fact is 
that the whole State of Louisiana and much of Mississippi went 
down in a worse way than what even we experienced here, and the 
same 90 days and 180 days statutory deadlines were there. I 
cannot believe there are not act of God-
    Ms. Kimsey. Exemptions.
    Ms. Norton.--extensions of some kind or the other, or that 
somebody wouldn't be required to do so. Now, I am not going to 
ask you, I am going to ask Mr. Berry to inquire of EEOC how 
they dealt with this. Because guess what? I bet a lot of 
employees didn't get there. I bet you that. And if they didn't 
get to various parts of the region and somebody missed the 
statutory deadline, how did the agency deal with an act of God 
event? We would like to know that. And there must be other 
agencies that need to be informed of what to do, because, 
again, we may be facing another hazard and, remember, we are 
talking about all hazards; we are talking about hazards that 
could be events that were upon us.
    What steps is FEMA taking to ensure that WMATA is able to 
receive reimbursement rapidly, particularly given the 
dependence of the Federal Government on WMATA and its present 
very risky financial state? Have they applied?
    Ms. Arcuri. There have been declarations, as you know, in 
the District as well as in Maryland and Virginia, and they will 
be making application through the respective jurisdiction.
    Ms. Norton. Now, let me ask you. The declarations--let us 
find the status of the declarations. Have all the jurisdictions 
asked for declarations for both storms, and have both storms 
had their declaration for all the affected jurisdictions?
    Ms. Arcuri. The declarations for the December events have 
been received. The President has declared those events major 
disasters. There has been a request from the mayor for the 
District; there has been a request from the governor of 
Virginia. They are in process. There has not been a 
presidential declaration for either of those as of yet.
    Ms. Norton. When might we expect a decision, again, given 
the precarious states of these jurisdictions?
    Ms. Arcuri. Madam Chair, it is in process; it is in review. 
As soon as the agency is informed, they will be informed.
    Ms. Norton. When might the benefits start flowing for the 
December declaration?
    Ms. Arcuri. The process for the public assistance program, 
the implementation of that program is that there are 
applicants' briefings that are hosted by the State or the 
District and FEMA, and at those meetings the eligibility of 
both the work and the cost is described. Following that, there 
are what we call kickoff meetings where, at that point, they 
start to write these project worksheets which detail the scope, 
the eligible scope of work and the associated costs. Once those 
are completed and processed, they are the actual financial or 
obligating document, and soon after those sheets are completed 
and processed, they will be able to draw down the funding for 
that specific work.
    Ms. Norton. What is the usual time it takes to get to the 
point where the local jurisdiction can draw down some funds?
    Ms. Arcuri. Madam Chair, it is really very difficult to 
anticipate that time frame. There is a process that proceeds 
and it depends very much on the State or the District, as well 
as, in the case of the District, the State agencies and how 
quickly they can aggregate costs and they can get the 
documentation to support those costs.
    Ms. Norton. So the problem now is with the jurisdictions? 
You are prepared to move as soon as they--and they haven't, any 
of them, come to these, what is it, applicants----
    Ms. Arcuri. Actually--excuse me. I am sorry for 
interrupting, but we have--the applicants' briefing for the 
District took place yesterday and we are proceeding along in 
accordance with what I would say would be regular time frames.
    Ms. Norton. How about the other two jurisdictions?
    Ms. Arcuri. Applicants' briefings, as I understand, in 
Maryland are taking place today and tomorrow.
    Ms. Norton. That is good news. But your testimony is that 
FEMA has not provided any reimbursements as yet for any of the 
jurisdictions after this snowstorm, is that correct? No 
reimbursements have yet begun?
    Ms. Arcuri. Madam Chair, I know that specifically for 
Maryland and for the District that is the case. I am not quite 
sure regarding Virginia, and I would be more than willing to 
get back to you with that.
    Ms. Norton. I wish you would, within 30 days.
    Ms. Arcuri. Certainly.
    Ms. Norton. Now under the statute, FEMA may be treated as a 
local entity. I am sorry, Metro. FEMA may treat Metro as a 
local entity. I am a little concerned, to tell you the honest 
truth, Ms. Arcuri, by making Metro go to each and every 
jurisdiction in what will be another whole mountain of 
paperwork, rather than treating them as a local entity, telling 
FEMA straight away, hey, how much did it cost and what did it 
cost, in as much as the statute says you may treat them as a 
local entity. Why take them through somebody else's bureaucracy 
to get to exactly where you could get them to?
    Ms. Arcuri. Madam Chair, according to the FEMA regulations, 
they actually are treated as a sub-grantee. The State is 
actually the grantee----
    Ms. Norton. I know exactly how they are treated, and I am 
saying that they could be treated, under the words of the 
statute, now, as a local entity. Does that mean local entity is 
only like the City of X and is not like an entity that can be 
treated in its own regard? See, Metro doesn't come under any of 
these local entities. Metro comes under Metro, and these local 
entities contribute to Metro. But now you are making Metro go 
to Maryland, go to the District, go to Virginia as if somehow 
they were responsible for Metro, when they are not. Metro must 
deal through Metro. Yes, they give money to this umbrella 
organization, but you are now taking them down to where neither 
the Metro statute nor, as we read it, necessarily, the FEMA 
statute would put them, and that is to where they cannot apply 
for money that would be due them.
    Somehow, somebody is going to get charged with some 
overhead for dealing with Metro coming through them. Somebody 
is going to have a back and forth in these three States as to 
whether or not that is the amount. Somebody is going to wonder 
whether or not that takes from them. I am a little concerned 
about this bureaucracy on top of bureaucracy and whether they 
can be treated as a grantee rather than a sub-grantee, as if 
they were Indian tribes.
    Ms. Arcuri. Essentially, Madam Chair, that is exactly what 
the FEMA regulations say, that they would not be treated as a 
grantee; they are to be treated as a sub-grantee. And, 
historically, when we have had sub-grantees that have had costs 
incurred across multiple jurisdictions, they have been brought 
out by jurisdiction. So I would be more than happy to explore 
the option of having all the costs brought into or under one 
jurisdictional element and be able to get back to you with 
that.
    Ms. Norton. I would very much appreciate it, because 
although Indian tribes are a sub-grantee, FEMA has used its 
discretion to treat them as a local entity, local government 
under the Stafford Act.
    Ms. Arcuri. Correct.
    Ms. Norton. So I am looking to the statute itself and I am 
trying to cut down--remember, we do have a paperwork statute 
that says get to the point, and I am trying to get us to the 
point, and I can tell you, you are going to get into all kinds 
of sub-bureaucratic tangles with the jurisdictions, who don't 
know a darn thing--remember, there is no experience, virtually 
no experience with FEMA in this jurisdiction in the first 
place, and here comes them. They are either going to lob it on 
top of theirs and leave it to you, which would mean you would 
have to do it anyway, or they are going to get involved in your 
business, about which they know nothing. So I would, first of 
all, ask you to eliminate some of this paperwork and to treat 
Metro as it is defined in the statute, as a local government 
under the Stafford Act. And I ask you to do this because the 
next time, remember, it may not be a snowstorm; it may be 
something else.
    And I would ask you in 14 days to get back to this 
Subcommittee as to whether or not Metro may be treated as a 
local government as defined by the Stafford Act. If there is 
any reason, we would like to know it.; we certainly don't want 
you to do anything where there is a disagreement with what the 
law requires. But we do know that Metro is also a grantee, and 
we would prefer not to get into a contest of labels, 
particularly given what we read every day about the status of 
Metro.
    On telework, it was your testimony, Mr. Berry--I was just 
shocked--as much as we have been pushing telework--to know that 
only 5.2 percent of Federal employees regularly telework under 
a formal agreement. That is on page 3 of your testimony. And 
your conservative estimates are in this region a pitiful 10 
percent. We have the most crowded roads, or virtually so, not 
entirely, in the Nation. What in the world is holding up 
telework in what amounts to a paper pushing jurisdiction, the 
Federal Government? What stands in the way of getting more 
regular telework so that perhaps the agency head doesn't have 
so much discretion and is perhaps not in tune with the changing 
times to in fact get us beyond these very shallow figures?
    Mr. Berry. Madam Chair, I appreciate both your leadership 
and that of Congressman Sarbanes and Congressman Connolly and 
others who have been such leaders on this issue, and I am very 
happy to join you all in your efforts to try to improve upon 
those numbers. I really liked the idea of the interpretation 
that was raised here today by AFGE, and I have already asked 
our staff to go back and work with our lawyers, if we can do 
that, and flip----
    Ms. Norton. Do what precisely?
    Mr. Berry. Flip the presumption so that I wonder if, 
through regulation, we could sort of flip the presumption and 
say that everybody is presumed to be eligible for telework, 
rather than having to be designated for telework. That way, 
agencies could designate employees who wouldn't be eligible for 
telework. In other words, kind of flip it around from what it 
is now.
    Ms. Norton. Now, has OPM put out any guidance on how 
agencies should decide who are?
    Mr. Berry. We have been very aggressively pushing this, 
Madam Chair, and I think what you are going to find, what we 
are turning to right now is to get a little bit more muscle 
behind it.
    Ms. Norton. Is there any muscle behind it now, Mr. Berry?
    Mr. Berry. I would say, quite frankly, right now, 
obviously, the results show for themselves that there is not 
enough muscle behind it. The results are sad.
    Ms. Norton. Well, what is the muscle? I am just trying to 
figure out----
    Mr. Berry. The President of the United States.
    Ms. Norton. No, no.
    Mr. Berry. No, that is who----
    Ms. Norton. He is a man. Muscle is a directive to the 
agency.
    Mr. Berry. Right.
    Ms. Norton. And I am sure he has not busied himself with 
this matter.
    Mr. Berry. No. Actually, I would like to tell you a little 
story, if you have a second. During the snowstorm, when the 
President checked in with me about this event, we discussed 
telework and the importance of it, and I explained to him that 
in 1996, which was the last major event that revolved around 
this, less than 1 percent of us could telework at that time. At 
this storm, about 30 percent, as we said, were teleworking 
during this storm.
    Ms. Norton. You said they were logging on. Does that mean 
they stayed on and worked?
    Mr. Berry. Well, obviously, we would have to--and some 
people were working who weren't, obviously, on the computer, 
too. So these numbers are hard--I can't give you an exact, 
precise story.
    Ms. Norton. But at 30 percent logged on, those were some 
people who were not even under agreement, formal agreement.
    Mr. Berry. And that could well be the case.
    Ms. Norton. Do you know how anxious Federal employees are 
to do to their work?
    Mr. Berry. Absolutely. So that is a great point. So what 
the President and I discussed was wouldn't it be great if, 
during the next event, we could get those numbers up to 80, 90 
percent of people being able to operate. If we could have 
everybody meet the example of the Patent and Trademark Office 
that we just discussed, about 85 percent productivity, that is 
what we need to be striving for.
    Ms. Norton. Are there security barriers or some--I mean, I 
am not even sure how you make the decision. Are there some 
employees who should not be expected because of the nature of 
their work? I am still in the dark as to who gets the 
presumption and who does not in favor, even if you do what Ms. 
Kimsey asks.
    Mr. Berry. In the past, I would say back in 1996 days, 10, 
12 years ago, technology and security were the two main 
barriers to telework. Most of the technology and the security 
issues have been resolved. I can give you a good example with 
my agency alone. We do 95 percent of the background security 
investigations for this Government, including all of the 
Department of Defense, to establish eligibility for access to 
information that has classified, top secret, special code word, 
and secret designations, the investigations are done by the 
Office of Personnel Management. Those investigations, 95 
percent of my staff are doing those out of their homes across 
the Nation, so they are teleworking, handling highly sensitive 
material. So we have solved the security and technology 
problems of this.
    Why we are not reaching those numbers of 80 and 95 percent 
today is two reasons primarily: managers who believe that 
unless they have the employee in front of them and are stuck in 
a sort of 19th century, 20th century mind-set that someone 
needs to be at their desk to be working I would put as our 
largest barrier; and the second is the remaining technology, 
the cost of getting people the right equipment, getting people, 
most people in our agencies now are not using desktop 
operations anymore, they are using their laptop as their 
desktop. So they can immediately, they boot in. At your desk 
you have a docking station, and they can take that home with 
them and remain as secure and as functional as they are at 
their desk.
    If we can make the investment--and we were figuring the 
cost of the latest computers between $1,000 and $2,000 tops to 
have the security and the sufficiency to operate. You look at 
the cost of--I explained to you here $71 million is the 
opportunity cost lost of a closure day in the Government. With 
two days we could have paid to outfit everybody in this region 
with the right equipment so that we could have accomplished 
telework. So we need to get there. We will get there.
    And when I say I want to bring the right muscle to this, 
the President is committed on this issue. The President has set 
up a task force, multi-agency task force which I am chairing 
for him, that we will be reporting back to the President with 
our recommendations so that he can issue the directive to the 
Federal community as to what needs to be done to get this over 
the hump and over those final speed bumps. So that is the 
muscle I am seeking to bring into this, and I think once we get 
it, that is when we will start to see those numbers 
significantly increase.
    Ms. Norton. Yes, a directive of the kind Ms. Kimsey 
suggested might be useful after one looks at the available 
workforce and what the workforce does, and gives the agency 
some guidance. I don't hear, Mr. Berry, that there is much 
guidance. All I hear is they have total discretion to decide. 
Now, many of these are baby-boomers, old school baby-boomers 
who are not with the millennials yet, or not even with others 
who are not baby-boomers or others who are quite ready, no 
matter who they are, to work from home. I must tell you that I 
don't see any reason for agencies to change their habits unless 
they are confronted with the muscle that you indicate. And we 
would appreciate, especially as we always are in preparation 
for the next event, I would think that at least during----
    Well, let me ask Ms. Arcuri. Is there telework done by 
employees of FEMA, who are, after all, a giant emergency 
workforce?
    Ms. Arcuri. Yes, we do, Madam Chair. We have employees----
    Ms. Norton. How many? What percentage?
    Ms. Arcuri. I can't speak on behalf of the agency, but I 
can tell you----
    Ms. Norton. What percentage of your agency's employees here 
in the National Capital Region were designated as essential 
employees?
    Ms. Arcuri. I do not have that information for the agency.
    Ms. Norton. Mr. Beckham?
    Ms. Arcuri. I do have it for the region.
    Ms. Norton. Well, for the region and for the National 
Capital Region I would appreciate it.
    Mr. Beckham?
    Mr. Beckham. I don't have the specific information 
available, but as it relates to the winter snowstorms of both 
December and February, we did in fact telework for those non-
emergency response officials that are part of the headquarters 
agency here in the National Capital Region. Our emergency 
response officials continue to be in the posture of coming to 
work certainly where possible.
    Ms. Norton. Well, what was the record of these emergency 
response officials coming to work given the severity-of FEMA 
workers coming to work given the severity of the snowstorm?
    Mr. Beckham. I will say it wasn't 100 percent, but I would 
have to get back to you with the specific----
    Ms. Norton. Were any sanctions taken against those who were 
not able to come to work?
    Mr. Beckham. To my knowledge, I don't know of any that were 
taken, but, again, I would have to check with our chief human 
capital officer to give you that specific or accurate 
information.
    Ms. Norton. Well, I am pleased at least I haven't read of 
any in the newspaper, and Federal workers usually know how to 
speak up if they are being asked to do the impossible.
    I want to thank this panel; your testimony has been 
absolutely essential. I want to call the next panel before us 
now and excuse this panel. Thank you for your testimony.
    Mr. Beckham. Thank you.
    Ms. Arcuri. Thank you.
    Ms. Norton. We are pleased to welcome the second panel. We 
are trying to use this to make the best of a very serious 
situation here by hearing as well from the jurisdictions and 
others who had responsibility within the jurisdictions for this 
unprecedented event. So I am pleased to welcome all of you from 
the second panel. And may I ask that Major General Errol 
Schwartz, the Commanding General of the District of Columbia 
Army National Guard testify first? Then we will go down the 
line and hear from all of you in turn.

   TESTIMONY OF MAJOR GENERAL ERROL R. SCHWARTZ, COMMANDING 
 GENERAL, DISTRICT OF COLUMBIA ARMY NATIONAL GUARD; MILLICENT 
WILLIAMS, DIRECTOR, DISTRICT OF COLUMBIA HOMELAND SECURITY AND 
   EMERGENCY MANAGEMENT AGENCY; DAVID KUBICEK, ACTING DEPUTY 
   GENERAL MANAGER OPERATIONS, WASHINGTON METROPOLITAN AREA 
 TRANSIT AUTHORITY; RICHARD MUTH, DIRECTOR, MARYLAND EMERGENCY 
 MANAGEMENT AGENCY, TESTIFYING ON BEHALF OF NATIONAL EMERGENCY 
 MANAGEMENT ASSOCIATION; JAMES K. HARTMANN, CITY MANAGER, CITY 
      OF ALEXANDRIA, VIRGINIA; AND DR. R. ERIC PETERSEN, 
      CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF CONGRESS

    General Schwartz. Thank you, Madam Chairman. Thank you for 
inviting me here today to testify on this issue. I will focus 
my comments on the District of Columbia National Guard support 
to the Homeland Security Emergency Management Agency during the 
snowstorms of December and February.
    The District of Columbia National Guard comprises both Army 
and Air National Guard components. We both have a Federal 
mission and a District mission. We pledge to support the city 
in any emergency that arises. Our primary mission is to rapidly 
respond to any requests from the mayor's office in the case of 
an emergency within the District of Columbia. The District of 
Columbia National Guard also took steps to mitigate any risks 
by placing a person in the D.C. Homeland Security Emergency 
Management Agency to help with the planning and coordination 
for an event.
    We work in accordance with the Homeland Security National 
Response Framework, and from that the District of Columbia has 
developed their own framework with 16 emergency support 
functions. The District of Columbia National Guard supports the 
District Homeland Response Framework with ESF 1-Transportation; 
ESF 2-Communications; ESF 6-Mass Care, Emergency Assistance, 
Housing and Human Services; ESF 9-Search and Rescue; ESF 10-Oil 
and Hazardous Material Response; ESF 11-Agriculture and Natural 
Resources; ESF 13-Public Safety and Security; and ESF 16-
Donations and Volunteer Management.
    For the snowstorm of 2009 and 2010, we used ESF 1, which 
was primarily transportation. The District of Columbia 
Emergency Management Agency requested support to move personnel 
back and forth, either emergency personnel or personnel who 
were called to perform emergency duties within the District of 
Columbia. We supported them with our Humvees and personnel, and 
we also had the capability of extending our services to other 
National Guard elements from FEMA Region III to augment those 
services. We had a reasonable success with that. We also used 
our personnel to retrieve other individuals who we needed from 
their homes to the Armory in support of those missions.
    The District of Columbia National Guard also has the 
capability of responding with our Civil Support Team. We 
express our appreciation to the Homeland Security Emergency 
Management Agency for their cooperation in working with us as 
we supported the city.
    In conclusion, the District of Columbia National Guard 
stands ready to support the city in any way we can and extend 
our services to any other agency within the District of 
Columbia.
    Ms. Norton. Thank you very much, General Schwartz. I must 
here, for the record, thank you for your extraordinary service 
to the people of the District of Columbia and the Region.
    Millicent Williams, Director of D.C. Homeland Security and 
Emergency Management Agency. Ms. Williams.
    Ms. Williams. Thank you very much. Good afternoon, 
Chairwoman Norton and Members of the Subcommittee. My name is 
Millicent Williams, as has been mentioned, and I am the 
Director of the D.C. Homeland Security and Emergency Management 
Agency, also known as HSEMA, and I may refer to it as such 
throughout my testimony. I appreciate the opportunity to 
provide testimony about the District of Columbia's response to 
and recovery from this season's historic snowstorms and the way 
in which local governments work with FEMA during periods of 
disaster, regardless of cause.
    Specifically, the Subcommittee's request for testimony 
asked that my colleagues and I address the following: action 
that has been or could be taken by FEMA and the affected 
jurisdictions, and any response and recovery funds for which 
the jurisdiction may qualify; how FEMA and other agencies and 
jurisdictions in the National Capital Region might be expected 
to prepare for and respond to future disasters, whether another 
snowstorm, hurricane, pandemic event, or terrorist incident; 
and the means by which the Federal Government and the National 
Capital Region can work together as partners with FEMA. I 
applaud the Subcommittee for holding a hearing to address these 
critical issues and thank the Subcommittee for its continued 
support of the District of Columbia and the National Capital 
Region.
    I am pleased to report that despite the unprecedented 
challenges posed by the historic snowstorms this winter, the 
District of Columbia and our regional partners in the National 
Capital Region, including the Federal Emergency Management 
Agency, worked in a coordinated and collaborative manner to 
meet the needs of our residents. Successful collaboration 
allowed us to be both resilient and responsive, and I believe 
that this helped us achieve our primary goal, which is to 
protect the safety and welfare of our residents.
    The District of Columbia Government demonstrated its 
resilience in the face of challenging conditions by being open 
for business for all but two days during the December and 
February storms. In fact, the District Government never really 
fully closed, as we required essential personnel to report 
throughout the duration of the storm. Mayor Adrian Fenty set an 
early goal and communicated throughout the winter storms: 
unless there was a risk to the lives and health of District 
employees and residents, the District Government would continue 
to operate.
    As the seat of the Federal Government, the District has a 
unique responsibility to remain operational to ensure the 
success of all entities that call the District home. 
Accomplishing this goal is no easy task, and I would like to 
take a brief moment to acknowledge the hard working men and 
women who worked tirelessly throughout the storms to ensure the 
continued operations of government operations.
    The District was successful in meeting the challenges posed 
by this winter's storms for several reasons, but today I would 
like to focus on three in particular: strong leadership, 
effective regional coordination and cooperation, and the 
innovative use of technology for communication.
    There is no substitute for strong leadership during 
emergency situations, and Mayor Fenty demonstrated that 
principle during the recent snowstorms. The mayor made it clear 
early on that the District would be open for business and 
function as normally as possible during the snow events, and 
supported the accomplishment of the goal with concrete 
resources, directing each District agency to do whatever it 
took to get the job done. The mayor's clear direction led to 
strong coordination between the District, our partners in the 
National Capital Region, and the Federal Government.
    For reasons we are all aware, the District maintains a high 
level of readiness for all hazards and has developed a District 
Response Plan to support planning, training, and exercise 
efforts to maintain readiness. Among the hazards to which we 
devote our particular attention is snow. The District has a 
designated leadership team that is tasked with both the 
planning and execution of the District's Snow Response Plan.
    The District's Interagency Snow Team, led by the Department 
of Public Works and the Department of Transportation seeks a 
comprehensive snow planning process year-round. The product of 
this effort is the District's Snow Plan. During actual snow 
events, DDOT and DPW officials provide active operational 
management of the response from the Snow Command Center at 14th 
and U Streets, NW.
    Likewise, the HSEMA Emergency Operations Center remains 
fully operational throughout each the snow events or any 
emergency in the District of Columbia, and they did so in 
December and February, and coordinate all activities, with the 
exception of snow removal operations.
    During this year's events, District agencies, regional 
infrastructure partners, and FEMA representatives were brought 
together for coordination and situational awareness on 
regularly schedules HSEMA conference calls chaired by City 
Administrator Neil Albert or myself. These calls provided an 
opportunity daily or more frequently, as necessary, to review 
agency needs, assess our progress in implementing the Snow 
Plan, the District Response Plan, and agency-specific emergency 
plans, and make necessary adjustments.
    Given the limitation of my time, I am going to skip a 
couple of the components of my testimony, but would like to 
state that specifically the Federal Emergency Management Agency 
and the Department of Homeland Security have provided 
tremendous support to the District of Columbia by lending staff 
to our effort during and after the storms. The District also 
appreciates the Presidential Disaster Declaration made for the 
December 2009 snow event and anxiously await a final decision 
regarding the February storms. These efforts represent an 
excellent example of how the Federal, State, and local 
partnership worked as it should.
    Despite the success of the District in meeting historically 
unprecedented challenges, there are areas in which we can 
improve.
    I would like to conclude my testimony by expressing my 
appreciation to the residents, businesses, and visitors that 
endured the snow events in the District this winter. Though the 
storms posed challenges that were unprecedented in terms of 
their intensity and duration, we overcame these challenges as a 
community as a result of our preparedness efforts, flexibility 
in response, and plain old gold neighborliness. We will 
complete our review of the District's response, coordinate our 
next steps with regional and Federal partners, and determine 
the best approach to ensure that we are prepared for comparable 
challenges, whether from snow or other hazards, in the future.
    This concludes my testimony and I would be happy to answer 
any questions that you and the Subcommittee may have. Thank you 
very much.
    Ms. Norton. Thank you, Ms. Williams.
    Next, Richard Muth. Mr. Muth, am I pronouncing your name 
correctly?
    Mr. Muth. Muth.
    Ms. Norton. Muth?--who is Director of Maryland Emergency 
Management Agency.
    Mr. Muth.
    Mr. Muth. Good afternoon, Chairwoman Holmes Norton. Thank 
you once again for allowing me to appear before your 
Subcommittee and, in this case, discussing both our regional 
response to the record snowstorm and also of particular concern 
is the snow policy that is in effect now regarding the Federal 
Emergency Management Agency.
    My written testimony goes into a good bit of detail about 
what we think went right in our response to this unprecedented 
storm and some things that we plan to do better in the future 
and, perhaps most important, how to improve the FEMA policy for 
snow assistance. But let me begin my oral testimony by giving 
you a sense of what we were dealing with.
    At BWI Thurgood Marshall Airport, which is the official 
weather station for the Baltimore Metropolitan area, they 
recorded 84 inches of snow for this winter. The previous record 
was 62 inches, which was in 1995 and 1996. So we beat it by 
over 33 percent at that one location. We had, of course, three 
storms of more than 20 inches. Each storm alone was more than 
the recorded BWI Marshall for the last two winters combined, 
and those totals were about the same as what we experienced in 
the National Capital Region.
    Then when you look from the State of Maryland's perspective 
in Western Maryland, in Garrett County, Allegany County, they 
received up to 260 inches of snow this past winter, or 
somewhere in the area of 22 feet of snow, which is also about 
30 inches higher than they have ever seen in any of their 
records going back over 100 years.
    So the first question, I guess, how did we fare during all 
this. It is kind of hard to judge in that we have never 
experienced storms of this magnitude before. And I spent 33 
years at the local level of government before I went to the 
State, and certainly in my local experience we have never had 
to deal with these things either.
    I certainly look at these things as a public safety issue 
as more than just a snowstorm, and if you use that to give us a 
grade, we had very few fatalities that were attributed to the 
storm, and those were all traffic accidents. We were very 
concerned about building collapses due to the weight of the 
snow, and we had a few of those, but very little. We had some 
stranded vehicles that were stranded for hours before we could 
get in and remove the people from their cars just because of 
the severity of the storm. But overall I think from a public 
safety perspective we did pretty well.
    We did use the National Guard, as other States did. At one 
point we had over 600 National Guardsmen deployed throughout 
the State, doing everything from transportation to actually, in 
one case, delivering a baby. But all in all, with this 
magnitude--and I think that is one thing we have to keep in 
mind, this historic event of this snowstorm was taxing 
everybody, and I think we learned from that and do better from 
that, but I think next time we will probably still have a lot 
of issues that we have to deal with.
    You mentioned one thing earlier, and I think it is a very 
critical point, and that is the telecommuting, but at a greater 
sense, the actual continuity of operations planning. And I 
think that is the piece that really has to be driven home, and 
this storm is a great example of how all agencies, whether it 
is at the Federal, State, or local level, have to really look 
at their critical functions, what functions do have to continue 
and what functions can be done remotely. We have been working 
very hard for the last couple years. Governor O'Malley actually 
did an Executive Order a year ago mandating that all State 
agencies have a continuity of operations plan in place this 
past summer, which we do have in place now. So that is 
something that is very critical to all these things.
    And, if you don't mind, I would like to talk just a little 
bit about the Federal policy that we are dealing with right now 
regarding reimbursement. You mentioned a couple times the 
storms, the one in December, which we have received a Federal 
Declaration. We have not yet applied for the Federal storms 
because we are still doing an assessment on that, but that will 
be coming very shortly.
    In November of this past year, a new policy went in place 
with FEMA, and the new policy basically says that unless you 
have a record snowfall or within 10 percent of a record 
snowfall, you do not qualify for Federal assistance. One of the 
key points there I think is important is if you look at all the 
other hazards we deal with, all the natural hazards--
hurricanes, tornadoes, etcetera--none of them require a minimum 
amount of precipitation before you can open up that door; it is 
all based on damage and the impact it has on that jurisdiction.
    But a snow event, to qualify, you have to have an amount of 
inches that is a record snowfall. And based on where that 
snowfall amount is taken and who takes the snowfall amount 
really either opens that door for you or closes that door. So 
this is an area that we are going to be looking for a lot of 
assistance from Congress to help us through these policies and 
to hopefully come up with a new plan that is gives us much more 
ability for the jurisdictions to recover. The jurisdictions are 
in fiscal emergency across the State and across our Nation, and 
this snowstorm certainly added to that concern they have from a 
fiscal perspective.
    So we certainly appreciate your allowing us to come before 
us today and hopefully, with Congress and with us working with 
the Federal Government, we can come up with a fairer policy. 
Thank you.
    Ms. Norton. Well, thank you, Mr. Muth.
    Now, the next witness is Dave Kubicek, who is Acting Deputy 
General Manager of WMATA. Mr. Kubicek.
    Mr. Kubicek. Thank you, Chairwoman Norton and Members of 
the Subcommittee, for the opportunity to appear today to 
provide a perspective regarding recovery efforts, operating 
posture, lessons learned, and coordinated reimbursement efforts 
in the National Capital Region related to the February 2010 
snowstorms. I am Dave Kubicek, Acting Deputy General Manager 
for Operations for the Metropolitan Area Transit Authority, or 
commonly known as WMATA. I will use that acronym throughout my 
testimony.
    Consistent with the collaborative nature of the National 
Capital Region, WMATA has worked together with its State 
partners to respond to and recover from the February 
snowstorms. Our recovery efforts are ongoing and lessons 
learned are not just associated with WMATA, but with the region 
as a whole. Since preparedness, response, recovery efforts for 
any disaster require coordination across the regions, we are 
committed to reviewing our response efforts associated with the 
February snowstorms and implementing lessons learned.
    I would like to take a moment to discuss WMATA's response 
efforts associated with the February snowstorms.
    Snow operations began days prior to the record-breaking 
snowstorms, which began on February 5th. We started the 
implementation of WMATA's Severe Weather Plan. As we tracked 
the progress of the impending snowstorm, we prepared both 
equipment and employees, along with stockpiling deicer fluids, 
salt, and other materials. We stood up our new Emergency 
Operations Command Center at our WMATA headquarters to 
coordinate our efforts internally and with our local, State, 
and Federal partners.
    We also participated in the regional snow calls coordinated 
by the Metropolitan Washington Council of Governments. The snow 
calls allowed all local, State, and Federal entities within the 
National Capital Region to be briefed on current, future 
weather conditions by the National Weather Service, and each 
entity to report on their individual conditions and operational 
decisions, for example, whether schools or bus systems would 
open or would be closed. This facilitated situational awareness 
of the region's response efforts and coordinated decision-
making.
    As the severity of the snowstorm increased, so did WMATA'S 
snow response operations. WMATA personnel worked around the 
clock to clear rails of snow and ice and operate aboveground as 
long as possible. When WMATA snow commander determined it was 
unsafe to operate rail operations aboveground, we closed 
service, but still sustained underground service. Bus and 
paratransit vehicles discontinued service once road conditions 
in the jurisdictions deteriorated and WMATA'S snow commander 
considered them too dangerous as well.
    WMATA'S recovery efforts continued with additional repairs 
and maintenance on railcars and buses due to damaging effects 
of the snow. WMATA has been able to develop a list of lessons 
learned, both positive and negative, from the February 
snowstorms which can be applied to future disasters, regardless 
of the cause. Quicker recovery of rail operations could occur 
if WMATA were to have the equipment and people, in-house or 
contracted, dedicated to perform such work during a disaster. 
To operate more effectively during any major disaster, WMATA 
follows the policies established in the National Response 
Framework and the command and the management structure outlined 
in the National Incident Management System.
    In December 2008, WMATA established an Emergency Management 
Office within Metro Transit Police Department. This office has 
been working to incorporate the principles, policies, and 
guidance of both of the NRF and NIMS into the disaster 
operations within WMATA. The result has been effective in 
coordinating response within the region, which was exemplified 
in the response to the February snowstorms.
    Recoupment of the entire costs associated with the WMATA 
snow response activities would require a change in FEMA'S snow 
policy. Based on the combined magnitude of the February 
snowstorms and the continuing snow recovery efforts, we expect 
that the region will request that FEMA consider drafting a 
disaster declaration which would allow all snow response 
activities to be considered for reimbursement for an extended 
period of time, namely, February 5th through February the 16th. 
This time frame reflects the period in which most local 
jurisdictions, along with WMATA, were performing snow response 
activities and realizing any infrastructure damage. WMATA 
intends to continue its close coordination with FEMA and the 
individual States throughout the reimbursement process.
    I appreciate the Subcommittee's interest in the region's 
response and recovery efforts, lessons learned, and status of 
reimbursement associated with the February snowstorms. I want 
to emphasize again the integration and cooperation that 
occurred within the National Capital Region to these snowstorms 
that the cooperation is continuing and we join with others in 
the region urging the President to draft a state of declaration 
that would allow for full cost recovery.
    Thank you for the opportunity to testify today and I look 
forward to answering any questions you might have of me.
    Ms. Norton. Thank you, Mr. Kubicek.
    Next witness is James K. Hartmann, the City Manager of the 
City of Alexandria.
    Mr. Hartmann. Thank you, Chairwoman Norton, for the 
opportunity to appear today before this Subcommittee and 
discuss the National Capital Region's response to snow 
disasters.
    This hearing is certainly timely, given the unprecedented 
weather the National Capital Region has experienced, some of 
the worst weather experienced in this region since record-
keeping began.
    In December of last year, some 20-plus inches of snow fell 
on Alexandria, paralyzing our mobility and closing schools, 
businesses, and government. In February, an additional 40 
inches of snow fell. The second set of storms severely tested 
our ability to respond to a natural disaster of this scale. 
Fortunately, in the span of time between December and February, 
the City of Alexandria, like other jurisdictions in the region, 
evaluated our earlier response and learned many things.
    Alexandria learned that our traditional priorities for snow 
clearing, oriented towards ensuring the integrity of the main 
transportation grid, didn't make sense if a fire engine, 
ambulance, or utility truck couldn't leave the primary road and 
travel into a tucked-away cul-de-sac when a call for assistance 
was received.
    We learned that with more than 12 inches of snow, fire 
hydrants become inaccessible, particularly after streets are 
cleared and snow is piled along the curbs where the hydrants 
are located.
    We knew that we don't have nearly enough snow removal 
equipment to respond to storms of this magnitude. We will never 
have enough equipment for such a Herculean task, and, 
therefore, our partnerships with contractors is critically 
important.
    We learned that the employees we depend on for keeping our 
communities safe don't live in our city; they live in locations 
outside the urban core of the region, and getting to work in a 
major snowstorm is dangerous at best, impossible at worst.
    We learned that we need to be better prepared as a region 
to manage disasters like this one and other events that 
seriously threaten the well-being of our citizens, businesses, 
and visitors, as well as the seat of our Nation's Government.
    And we learned that being accurate in our assessment of the 
threat is very important.
    So by the time the February storms arrived, we were wise 
and better prepared. We took seriously the predictions and we 
planned a response structure that would allow us to do a better 
job in February 2010 than we did in December 2009. Alexandria's 
response to snow emergencies and all other incidents that 
threaten the public now begins with a National Incident 
Management System Incident Command System, or NIMS-ICS. Key 
staff in the organization has been trained in NIMS-ICS methods, 
and it is now our default mode of operation. ICS works; it 
takes away any blurriness about who is in command and what the 
priorities are for the City of Alexandria.
    When the threat dictates, we do not hesitate to open our 
Emergency Operation Center, our EOC, especially since we do not 
have a dedicated facility and must convert other space. It is 
there for emergencies and we use it.
    For the February snowstorm, we conducted a full activation 
of our EOC six hours before the first snow fell, and we kept 
the center open 24 hours a day for more than a week after the 
last flakes had fallen. An active EOC provides a touchstone for 
all of our efforts; it is vitally important to our continuity 
of operations and continuity of government during a disaster. 
It was also emblematic of our commitment to restoring our 
community to normalcy as quickly as possible.
    Once the EOC was operational and our NIMS-ICS structure was 
in place, we could readily make decisions about priorities and 
resources, which we did continuously.
    From the December storm, we knew access to public safety 
was a far more important priority than access to the Capital 
Beltway, so our priorities began with the simple: make every 
street in the city passable for a fire truck, ambulance, or 
public utility truck. You have all been to Alexandria, and you 
know what a challenge that can be.
    In priority order, after accessibility of our streets came 
access to fire hydrants, access to sidewalks, particularly in 
high-density population areas, and Metro stations, and access 
to storm drains. Alexandria has been known to flood on 
occasion.
    The February storm also presented a challenge we did not 
experience in the December storm, a threat to our buildings and 
other structures from the crushing weight of three and a half 
feet of snow, with drifts up to ten feet in spots. Assessing 
and clearing snow from rooftops immediately drew tremendously 
on the resources of the city and our contractors.
    Our priorities were reassessed every 12 hour period, in 
sync with the 12 hour operational periods of the ICS structure. 
When threats could be cleared, we did so and we moved on to the 
next priority.
    I mentioned a majority of the employees and contractors we 
depend on to protect and assist our citizens in times of 
emergency do not live in the city, and with the help of our 
local business community and our partners in the hotel 
industry, many of our employees became residents of the city 
for the duration of the storms.
    As the snow began to fall, they stayed with us, working 
rotating 12-hour shifts for as long as it was necessary, in 
some cases more than 15 days. They give all government workers 
a good name.
    In the same way that our business community stepped up, so 
did our contractor forces. Fortunately, for many years we have 
used contractors to scale-up our workforce when needed. To 
respond to the disaster, we called upon contractors from the 
region, but also as far away as Charlotte, North Carolina and 
Buffalo, New York. They gave us resources to do what we could 
not have done alone. Most importantly, they helped us to 
minimize the threat to our community.
    I realize I offer a somewhat upbeat picture of the 
conditions in Alexandria, and it is not an overstatement. The 
willingness to critically review our actions after the December 
storm gave us a tremendous boost in our preparation for the 
events of February 20th. Properly assessing the February event, 
having proper organizational structure in place to manage the 
response effort, clearly ordering priorities and using our 
partners to help made last month's storm the least impactful it 
could have been for our community.
    Of course, not everything went as smoothly as it could have 
hoped, and it is only fair that I acknowledge those areas where 
improvements are yet to be made.
    While we anticipated this event would cause suspension of 
service of Metro, the closings of schools, and the shutting of 
the Federal Government, we were challenged to understand when 
and under what conditions these services would be restored. We 
were in some instances equally challenged to provide the 
resources necessary to accommodate the restart of services.
    In the context of our emergency response to a snowstorm, a 
decision to open the Federal Government without adequate 
sidewalk clearing around Metro stations or a fully operational 
public transportation system resulted in hundreds of 
pedestrians literally in the streets of Alexandria, an unsafe 
condition that need not exist.
    Decision-making on when to open schools that occurs without 
the full benefit of information regarding roads, sidewalk, and 
bus stop conditions is troublesome. Racing to open schools to 
foster a public sense that a return to normalcy has been 
achieved is dangerous and threatens the very future of our 
communities and our children.
    For the sake of time, I am going to cut to the closing.
    From an administrative standpoint, the current restrictions 
imposed by the FEMA Snow Assistance Policy are unnecessarily 
burdensome on the local jurisdictions who must expend 
significant funds outside their approved operating budgets to 
address natural disasters of this magnitude.
    In closing, I appreciate the opportunity to testify and 
want to reiterate that the February 2010 snowstorms were not 
ordinary winter events for the City of Alexandria or the 
National Capital Region. Indeed, Snowmageddon or Snowpocalypse, 
as it is now being called, met every accepted definition of a 
natural disaster. This event quickly outstripped our local 
resources, interrupted the normal functions of our city for 
weeks, and led to a sustained recovery effort that continues to 
this very day. Our commitment to local, State, and regional and 
Federal partnerships is resolute, and we look forward to a 
continued dialogue about how we can sustain and improve our 
positive working relationships.
    I would encourage this Committee to recommend to FEMA a 
revision to their 48-hour reimbursement policy.
    Thank you for your time today and thank you for the 
opportunity to speak. I welcome any questions you may have.
    Ms. Norton. Thank you, Mr. Hartmann.
    We are going to go to the final witness. I would like to 
hear his testimony briefly because I would then like to go to 
Ms. Edwards for the first questions.
    Dr. R. Eric Petersen, the Congressional Research Service. 
Mr. Petersen.
    Mr. Petersen. Thank you, Madam Chairwoman, Ms. Edwards. I 
appreciate the opportunity to appear before you today.
    You have asked me to discuss experiences from recent winter 
storms that might apply to future natural or human-made 
disasters that affect the National Capital Region. I will 
discuss that briefly and some other preparedness issues that 
affect the region.
    Response to the winter storms of 2009-2010 may demonstrate 
preparedness capacity in the NCR in a couple of broad areas. 
First is the extent of emergency preparedness coordination and 
communications prior to and during the storms and during the 
recovery period. It appears that ongoing forecasts, 
recommendations to avoid unnecessary travel, and, in some 
instances, where to seek shelter or other assistance in the 
event of need were communicated as needed. At the same time, 
among the diverse group of municipal State, Federal, and 
regional entities, it does not appear that there is a single 
entity that can speak authoritatively to all of the issues that 
may be of region-wide interest in an emergency.
    Recovery and resumption of normal activities is another 
area. Some governmental entities appear to have maintained 
their operations through the storm, notably, the smaller ones 
in compact geographical areas such as the United States 
Congress, while recovery of others may have been delayed or 
impaired because those entities are dependent upon critical 
services and access provided by other local or regional 
governments. While the area around the Capitol was accessible 
and the buildings open, surrounding roads throughout the region 
awaited treatment to make them passable and to allow resumption 
of routine activities.
    The storms highlighted a region-wide dependency on mass 
transit, about which we have already spoken. Also, the storms 
arguably presented an ideal opportunity for residents in the 
region to shelter in place according to whatever readiness 
plans they might have developed.
    Now, while those are things that we may have learned from 
the storm, there are some other elements that the response to 
the storm did not address.
    Storms may not provide emergency planners with an improved 
understanding about potential response to incidents that could 
occur with little or no notice, or scenarios that could cause 
widespread, long, catastrophic consequences of extended 
duration across the NCR. Shelter-in-place response protocols, 
by their very nature, do not necessitate significant 
evacuations; there isn't required deployment of other emergency 
support processes such as decontamination protocols or need to 
test the surge capacity of regional medical assets.
    There are some other challenges unrelated to the storm. For 
example, it is unclear what regional plans have been developed; 
if they exist, to what extent they have been tested and 
validated throughout exercise and regular updating. If they do 
exist, it does not appear that they are very well publicized.
    It is not clear which entities within the NCR are 
authorized to order regional evacuations or whether they must 
consult with other entities before implementing their plans. In 
the non-Federal sections of the District of Columbia and 
Maryland and Virginia, it appears that emergency response 
follows the model specified for responding to disasters in the 
rest of the Country.
    Less clear are protocols for responding to incidents in and 
around facilities of the Federal Government. All three of the 
Federal branches--the Legislative, the Executive, and the 
Judicial--assert independent emergency planning and response 
authority to those places within the District and the NCR that 
are under their authority. Of particular note, and where the 
challenge may be especially acute, is Capitol Hill. Congress 
oversees a campus that is located in a critical nexus of roads 
and railways that serve as routes for evacuation and transport 
of resources to respond to an incident in the District.
    In the event of a widespread or long-term incident 
congressional facilities, it is unclear how that incident would 
be managed and who might manage it. Immediate response on 
Capitol Hill is likely to be provided by the United States 
Capitol Police. In a longer-term response, authority to appoint 
an Executive Branch-based incident commander is unclear and may 
raise broader questions about the autonomy of the Legislative 
and Judicial Branches to plan and execute their own emergency 
preparedness programs. On the other hand, the mechanism by 
which the Capitol Police might acquire and deploy response 
assets it does not possess is unclear as well.
    Similar concerns arise around the White House, Federal 
court facilities, and some Executive Branch department and 
agencies.
    To conclude, communications and coordination challenges 
that appear inherent in emergency and disaster response appear 
to be orders of magnitude more complex because of the diverse 
responsibilities and independent authorities of the National 
Capitol Region governing entities and a core set of mutual 
interdependencies.
    I believe it will leave it at that for time purposes.
    I very much appreciate, again, the opportunity to testify 
and look forward to any questions you may have.
    Ms. Norton. Thank you, Dr. Petersen.
    Ms. Edwards.
    Ms. Edwards. Thank you, Madam Chairwoman, and thank you all 
for your testimony.
    I would like to direct my questions to Mr. Muth, as the 
Director of Maryland's Emergency Management Agency--and, of 
course, a vote is being called. But I want to focus for a 
minute on the request that Governor O'Malley has made to the 
President, because I am unclear as to, one, that we will hear 
positively and the consideration of the snow events 
collectively. And I would argue that there needs to be 
flexibility even in the 48-hour rule because, when you look at 
the snow from December, then to the two storms later on, it is 
the collection of that that really had a tremendous impact on 
all of our services throughout the State and the two counties 
that I share in representing, Prince George's and Montgomery 
County.
    So I wonder if you could share with us your view of how 
that flexibility could have assisted in some of our 
jurisdictions. I would note that Prince George's County, in 
particular, doesn't actually qualify, and yet there was a 
tremendous drain on services and response in Prince George's 
County because of the collective snowfall that we received over 
this period of time.
    Mr. Muth. Yes, ma'am. Every point you made is very valid, 
and that was my concern with the policy. Prince George's 
County, with the new policy, was three inches short of being 
declared, and the inequity there is it all depends on where you 
take your measurement. And in this case the measurements have 
to be validated by the National Weather Service. There are 
three ways of doing it: you either have a station in your 
locality that is monitored by the National Weather Service or 
you have what they call a co-op with somebody that they verify 
or validate, and then the third is any other source that you 
have that they feel can be official.
    So, in my mind--I also mentioned earlier that this is the 
only natural hazard that requires a minimum amount of snowfall 
or, in the sake of a hurricane, you don't have to have three 
inches of rain before you have a declaration; it is based on 
the amount of damage that it causes. Snow should be the same 
way.
    And your point is well taken. Both your counties were very 
heavily impacted. Montgomery County actually had the most power 
outages than anywhere in the State combined, so it was hit 
extremely hard.
    The letter that the governor wrote to the President asked 
for the snowfall amounts to be waived and base it on the 
impact. He asked for the 48-hour rule to be waived. Right now 
they will only cover 48 hours of snow clearing, even though, in 
the February storms, we know that went on for six, seven, eight 
days, and some weeks they were still removing that. And then 
there were two other areas in that they have asked to be 
waived.
    So we are trying and we are hopeful that the President will 
see our response. I believe other States have joined us in 
writing and mentioning their concerns.
    The new policy just went into effect in November, and I 
think Maryland actually was the first State impacted with the 
storm since it went into effect. FEMA Region III, who we deal 
with, has been great; they certainly are working with us within 
the constraints of the regulations, and that would be what we 
would expect. But I am certainly hoping that Congress can have 
folks look at this one more time and really look at the impact 
it is having on the local jurisdictions, especially in these 
economic times.
    Ms. Edwards. But do you believe that even the current 
policy allows the President some discretion?
    Mr. Muth. It absolutely does.
    Ms. Edwards. So the President could exercise his discretion 
today with respect to these emergencies.
    Mr. Muth. On any policy. That is exactly right.
    Ms. Edwards. Let me just, before my--it looks like my time 
is running out, but before it does, one of the things that 
concerns me is that in a region like this metropolitan region, 
where we are simply not accustomed to experiencing these kind 
of events, that measuring it by the amount of snowfall or 
snowfall compared to some other time is not, I don't believe, 
the most efficient way to determine that we have experienced an 
event that has placed a great burden on the jurisdictions; and 
that is my concern with having a fixed policy without 
exercising that discretion, because if we had had the same 
snowfall where I went to law school up in New Hampshire, no big 
deal. But it is a big deal for this metropolitan region.
    Mr. Muth. Yes, ma'am, you are absolutely correct. The 
policy was designed and written, in my opinion, to remove 
snowfall as a declaration issue. They wanted to remove it 
altogether so you no longer could declare, and you can see that 
today, where you have to have a record snowfall. With this 
snowfall, it hasn't had a snowfall in that degree in over 120 
years, so they have successfully now taken the State of 
Maryland out of any future snowstorms, because we will probably 
never see it again in our lifetime, anyway.
    Ms. Edwards. Thank you.
    And thank you, Madam Chairwoman.
    Ms. Norton. Thank you, Ms. Edwards.
    I am going to ask Mr. Diaz-Balart, in light of snow 
conditions in Florida, whether he has any questions for us.
    Mr. Diaz-Balart. Madam Chairwoman, I have such expertise of 
large snowfalls, coming from southern Florida. I actually don't 
have questions. I do want to first once again apologize; I did 
have to go to the floor and I did mention you because it was a 
bill that I know you care greatly about, and I know that if you 
weren't chairing this very important Subcommittee, you would 
have been there as well. So I just want to apologize for not 
being here, but I know that you understand why I had to be on 
the floor. And I mention the fact that you would have been 
there as well if you didn't have this very important 
Subcommittee, so I apologize.
    Ms. Norton. I thank the gentleman for doing so. I could see 
by the monitor he was on the floor and the bill had to do with 
the naming of a courthouse in Mississippi where I went, as a 
student in SNICK, after the three slain civil rights workers. 
Only my official duties could have kept me from the floor, and 
I can't thank you enough, Ranking Member, Mr. Diaz-Balart, for 
mentioning why I was not there.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. And I want to 
thank again those who participated in this hearing for being 
here today, and I wanted them to know that I wasn't here not 
because I didn't think this was important. And if anybody could 
have learned something today, it would have been me, coming 
from South Florida, but, again, our other duties forced me to 
not be here. So thank you, Madam Chairwoman.
    Ms. Norton. Yes, Mr. Diaz-Balart. I want to say we have 
learned much from you and from, really, the model work that the 
State of Florida has done in all hazards, and although you have 
different kinds of hazards, the District of Columbia and the 
entire region has much to learn from the way in which Florida, 
over the years, has developed a system statewide and within its 
local jurisdictions for dealing with hazards much like what we 
experienced here this winter. So I certainly want to thank you.
    Let me go to General Schwartz first. How many members of 
the D.C. National Guard were deployed during the December and 
February snowstorms, General?
    General Schwartz. Madam Chairman, we had 203 members of the 
D.C. National Guard that were involved in this snow blizzard. 
Not all of them were on the streets, but we had folks in our 
operation centers and trying to keep those Humvees running, the 
maintenance folks.
    Ms. Norton. What kinds of things were they doing, General 
Schwartz?
    General Schwartz. They were deployed to the precincts 
around the District. They were responsible for moving emergency 
personnel. Even emergency personnel from Maryland who work in 
the District, we covered some of them and took them to work.
    Ms. Norton. Now, Mr. Muth and Mr. Hartmann, in your cases, 
were the Guards called out by the governor?
    Mr. Muth. Yes, ma'am, in the State of Maryland they were 
called out by the Governor.
    Mr. Hartmann. And the City of Alexandria, we made a request 
for assistance from the Virginia Guard and did receive that 
support.
    Ms. Norton. So the governor did call out the Guard?
    Mr. Hartmann. Yes.
    Ms. Norton. Now, of course, the mayor of the District of 
Columbia cannot ``call out the Guard,'' and I do have a bill, 
as you are aware, General Schwartz, to give the mayor of the 
District of Columbia the same authority to call out the Guard 
in a natural disaster, rather than to proceed through the 
President of the United States. If the mayor were to ask you, 
as he would--well, first of all, I want to know the difference 
between what the Guard could have done had it been called out 
and what it did, given the authority you have without a 
presidential call of the Guard.
    General Schwartz. Madam Chairman, there would be no 
difference. What I have done within the D.C. Guard is to place 
a person working in HSEMA to support all of the planning 
efforts that they would need to use the Guard, and I was 
leaning forward to help them right from the beginning.
    In the case of an emergency, however, in the District, like 
the Metro situation, I have the authority to push Guardsmen out 
to that emergency immediately, without asking the President of 
the United States whether or not I can.
    Ms. Norton. Well, I think you are making a good case for 
why this is an artificial distinction in the District of 
Columbia between the President calling out the Guard and your 
simply going out and doing it.
    I take it did the mayor ask you to come forward and do 
these things, Ms. Williams?
    Mr. Williams. Yes, ma'am, the mayor did make the request 
through the Homeland Security and Emergency Management Agency 
to the D.C. National Guard, and then the Guard went through 
their process of approval and informed us that they would be 
able to provide the necessary support that we would need 
throughout the duration of the snowstorms.
    Ms. Norton. So I just want to say for the record that I 
believe this demonstrates that this antiquated notion that is a 
pre-home rule notion, when in fact the whole District of 
Columbia was a Federal entity, much to our regret, but it was, 
is now a home rule jurisdiction. It does seem to me that at the 
very least, in a natural disaster, when the President of the 
United States knows very little about what to do,--if he will 
forgive me, good friend of mine that he is--but the mayor of 
the District of Columbia knows more about what to do in a 
hurricane or a snowstorm, and just to go straight to General 
Schwartz and say bring the men and women out. I know well how 
extraordinary their service has been to our city and, indeed, 
to the Country.
    I know you welcomed home 100 soldiers from Iraq. I look 
forward to being at their official homecoming later on. Very 
glad to have them all back here safe and sound, particularly 
since most of what they do they do here, stateside in the 
District of Columbia and throughout the region.
    In that regard, if the mayor requested--and this is another 
irony, which is why it seems to me my bill is relevant to just 
put the Guard under the mayor as the Guard is under the 
governors of the adjacent States--if the mayor did in fact 
request personnel from Maryland and Virginia, if you look at 
the compact, the compact specifies that these Guard members 
from Maryland and Virginia would fall under the ``operational 
control of the District's Emergency Services Authority.'' So it 
doesn't say will fall under the operational control of the 
National Guard. And yet these are National Guard troops, so, in 
effect, this compact would seem to supersede, if not override, 
the rather artificial process we have in place.
    I certainly appreciate the alacrity with which you have 
worked always, General Schwartz, within the rules, but quickly 
to support the District of Columbia.
    Mr. Kubicek----
    General Schwartz. May I respond to that, because----
    Ms. Norton. Certainly.
    General Schwartz. As members of the National Guard coming 
to the District of Columbia to perform duties just like they 
did for the 56th Presidential Inauguration, they fall under the 
control of the commanding general of the District of Columbia 
National Guard, especially that they are coming in under 502(f) 
funding requirements, which is a Federal funding line. The way 
the Emergency Management Assistance Compact works is that they 
fall under State active duty if they go to other States, which 
means those States fund the services of those Guard members. 
But because they were under 502(f) coming into the District of 
Columbia under a Federal clause, they fall under the command 
and control of the commanding general of the D.C. Guard.
    Ms. Norton. Thank you, General Schwartz.
    Mr. Kubicek, I think it was Mr. Hartmann who testified 
about severe stress put on the City of Alexandria because of 
the failure to clear around Metro stations. Could you comment 
on that?
    Mr. Kubicek. On our part, we do keep our stations, around 
our general station areas, clear on our part, but you have to 
work, I guess, on a collaborative nature to get the streets and 
everything else cleared and----
    Ms. Norton. Collaborating with whom?
    Mr. Kubicek. With all of the local jurisdictions throughout 
the region.
    Ms. Norton. What do you do to make sure that your emergency 
personnel get to where they can clear the streets or, for that 
matter, operate the Metro or your buses? How do they get there?
    Mr. Kubicek. On our part, for example, with the rail 
operation side, again, we get there via rail or heavy 
equipment. From a bus operations perspective----
    Ms. Norton. No, no. I am trying to find out how your 
workers get to where they could clear Mr. Hartmann's Metro 
stations and how your workers get there so they can run the 
railroad, if you will forgive the expression. How do they get 
to work? They all would seem to be emergency workers of one 
kind or another.
    Mr. Kubicek. Yes, that is correct. We do have various heavy 
equipment which permits us to operate through some very high 
snow areas. We do not have a full complement of it, so we have 
to work on our best case basis on where we can address areas 
with our equipment, and it just takes time----
    Ms. Norton. How do your workers get to work, Mr. Kubicek?
    Mr. Kubicek. How do they get to work?
    Ms. Norton. Yes.
    Mr. Kubicek. During this snowstorm, for example, we operate 
12-hour shifts. We did afford opportunity for individuals, we 
put people up in hotels close to their work area.
    Ms. Norton. That is what I am after.
    Mr. Kubicek. Okay. All right.
    Ms. Norton. You do have a way, when you have the kind of 
notice----
    Mr. Kubicek. Yes.
    Ms. Norton.--of a severe storm, to simply keep people where 
they can be reached and do their jobs.
    Mr. Kubicek. Yes, that is correct. And then we also put up 
our individuals or employees at some of our work locations as 
well. So we try to keep them in their respective region, where 
they report out of.
    Ms. Norton. Well, Mr. Hartmann, you talked about the 
crowding of your residents onto the streets of Alexandria. 
Would you elaborate so that we could have a clearer sense of 
what happened?
    Mr. Hartmann. Certainly I will, because I was the incident 
commander for the city and I was on the ground at the time, 
each and every day, as we were doing our situational awareness 
and our various assessments. It was basically one that we had a 
lot of demands out there in the public and probably not as much 
resources for all the multiple priorities that we had. 
Certainly, our priority to make sure that we have emergency 
vehicle access to all the various residents and businesses in 
the city was a monumental task. But at the same time that meant 
that we had to divert those resources that would normally be 
doing sidewalks, even the Metro center lots and so forth.
    Ms. Norton. Wait a minute. Who is supposed to do the Metro 
center lot, you or Metro?
    Mr. Hartmann. There is a portion of it that Metro takes 
care of and, of course, we take care of all the infrastructure 
coming up to that. Sometimes there are some pretty seamless 
borders there, and I think our overriding--our joint priorities 
are done fairly well. But in a case like this, and with these 
storms--and I think what I was suggesting in my testimony--
there is an expectation that one has to make with the reality 
of the amount of resources that we have and truly the public 
safety. So sometimes things are opened up earlier than were 
actually ready for them, and I think that is a lesson learned 
for all of us in the region that we need to do on a case-by-
case basis. For instance, the Braddock Metro Station may have 
been ready much earlier than the King Street or vice versa and 
so forth. And I think we will certainly initiate that dialogue 
and have better dialogue. Hopefully we will never see another 
set of storms like this, but if we do, I think that was a 
lesson learned for us.
    Ms. Norton. Was Metro on these so-called COG calls, Mr. 
Kubicek?
    Mr. Kubicek. Yes, ma'am.
    Ms. Norton. Why didn't that help, for example, to divide 
out who would be clearing, who had employees near enough to 
clear some stations, whether it was a local jurisdiction, for 
example, or Metro employees? I mean, are those calls used for 
such practical nuts and bolts notions as that?
    Mr. Kubicek. On the COG call at that level, it is generally 
a little bit higher level. Basically, you are trying to assist 
the overall status of the region as a whole. For example, with 
WMATA, we would focus on like our stations and our bus bays. 
That would be our primary response. But then we would also be 
coordinating with all the other districts and regions to see 
where they are at with their streets. There is sharing of 
materials like salt and such. So, again, we would first 
prioritize bus bays, station access and stuff, and then we 
would also start evaluating the ability to get to and from the 
station via the bus bay with the local jurisdictions.
    Ms. Norton. This gets to be quite complicated.
    Mr. Kubicek. Yes.
    Ms. Norton. There is not a lot of discussions across 
jurisdictional lines.
    Mr. Kubicek. Yes.
    Ms. Norton. I am concerned, for example, that Metro 
heroically opened its subways and then finds out that nobody 
can get to them because the snow may not be cleared because 
there hasn't been sufficient communication on the ground to get 
to them. It does seem to me that the real test of emergency 
planning is detail and only detail. Everybody can get on the 
phone and talk about it is going to snow tomorrow. What 
residents want to know is what you are going to do about it on 
their block and at their Metro station.
    If that planning at that level has not gone on, and it is 
my impression from this testimony that the linking up, for 
example, of subway stations with on-the-ground conditions 
getting there, that that kind of detail has not had to be done 
before, I would certainly ask that perhaps through COG, and 
with Metro very much included, that that kind of very detailed 
on-the-ground planning--that is how the military does it. They 
don't say let's throw a bomb and just see where it hits; they 
are down to the ground of the ground of the ground level. Just 
ask General Schwartz. And I am afraid that that is what this 
is, it is a war against the snow, and the snow has a whole lot 
more on its side to win, as we have learned.
    Yes, you are right that we may never get this again, but 
this is the time to learn from what we have gotten, and our 
concern here--because we do have jurisdiction over not only 
natural events, but manmade terrorist events, is gets scarier 
and scarier as we try to apply what happened here to something 
that paralyzed the region against what would happen if this 
were a terrorist event.
    We really don't expect that there would be a terrorist 
event that paralyzed the region the way a snowstorm does. We 
really don't. We have all kinds of scenarios. But we don't 
expect some kind of nuclear attack here that would send 
everybody. We do expect parts of the region to be paralyzed, to 
be incommunicado with other parts. So we are using this very 
much as a test for all hazards.
    And, of course, we are very concerned, Mr. Kubicek, about 
WMATA because WMATA is central to everything that happens, 
public and private, in this jurisdiction. Now, you have a so-
called severe weather plan. What is that?
    Mr. Kubicek. On our severe weather plan, we cover like snow 
events, ice events, hurricanes. Basically what it does is it 
puts us to a state of readiness and preparedness whenever we 
see an upcoming weather event that is going to impact our 
service. And we will get our plant maintenance people involved, 
our bus operations, our rail operations, our general 
maintenance staff, and it is a coordinated effort, and also it 
goes through multiple departments for resources, if we need 
support from our procurement side to go and buy additional 
resources or you have to get a special exemption for us to go 
out and use additional P-cards. So it is really a readiness 
document. It is something that we evaluate on an annual basis. 
It is an evolving process and we kind of treat it as a living 
document.
    Ms. Norton. Mr. Kubicek, I am a native Washingtonian who 
spent some of the best years of her life in New York City. I 
don't recall ever seeing New York City's subways ever close 
down. Hardly does the city close down, but I was there when 
there was a very severe snowstorm. I don't recall ever seeing 
the subway close down. Now, that is a very much older system, 
maybe the first in the Country. I know Chicago's is also older 
and gets far more inclement weather and snowstorms.--I also 
know that both systems ride significantly aboveground in parts 
of the system. Why can't Metro ride overground and underground 
during a snowstorm?
    Mr. Kubicek. Well, part of it on a storm this size, we have 
to really look at the type of equipment that we have been 
provided with to work with at this time.
    Ms. Norton. So it had to do with the size of the storm.
    Mr. Kubicek. Yes, the size of the storm. Typically, if we 
get two to four inches or upwards of six inches, we are going 
to do just fine. We have an area where we kind of call it like 
an eight inch rule. Whenever we start getting accumulation of 
snow above eight inches, that is when we start getting into a 
lot of problems.
    Ms. Norton. What are the problems? You can ride the train. 
You clear the tracks, I guess, when they are two inches. Why 
can't you clear the track when they are eight inches, as you 
say?
    Mr. Kubicek. Depending upon the snowfall, if it starts 
getting above eight inches, then it starts coming into contact 
with the third rail, which provides the electrical supply to 
the railcars, and whenever you start running into that area, 
you are basically scraping water and you are creating direct 
shorts.
    Ms. Norton. What do they do in New York? Don't they have a 
third rail there too?
    Mr. Kubicek. They do have that. They have different snow 
removal equipment. Some systems don't have cover boards. We 
have cover boards on our system and those are good and bad; in 
one way they help us keep from snow falling on the third rail, 
but if you have a lot of blowing snow and stuff, it kind of 
catches it and it gets impacted. And then it also has the 
potential of damaging the equipment on the railcars, it can 
knock off the electrical collectors.
    Ms. Norton. So your testimony is that absent a really heavy 
snowfall, you think that our trains can ride above and below 
ground at the same time?
    Mr. Kubicek. Yes. Our system, in the 8 to 12 inches, we are 
going to be able to operate with what we have. It is just that 
whenever you get into an area where you are starting talking 
about 15 to 20 inches of snow blowing and drifting--for 
example, we had areas of the system where we had our portals 
and we had kind of like a Venturia effect, and we had 
snowdrifts above 15 feet tall that accumulated very quickly. So 
there are going to be some interruptions to that.
    Ms. Norton. Mr. Kubicek, what are your estimates of what 
FEMA may reimburse WMATA for?
    Mr. Kubicek. I know what we have submitted at this point in 
time has been around $9.4 million in our damages. We are still 
working on the collection or the finalization of our numbers, 
but that is at least what we have attributed to this storm at 
this point in time formally.
    Ms. Norton. Are you talking about only the December storm 
or are you talking about both storms?
    Mr. Kubicek. I am just talking about February.
    Ms. Norton. Sorry? February?
    Mr. Kubicek. The February storm.
    Ms. Norton. What about December?
    Mr. Kubicek. At this time, the estimate is around $1.7 
million.
    Ms. Norton. Well, let me ask you whether--I had assumed 
without knowing, therefore, I want to ask the question. Since 
WMATA is, under the Stafford Act classified as a local entity, 
and since it knows where it collected the snow and what the 
damage was, I want to know what your view is of having to go 
through each local jurisdiction in order to make you 
application for reimbursement.
    Mr. Kubicek. On that, I guess I could see pros and cons.
    Ms. Norton. Would you give us both, please?
    Mr. Kubicek. Give both, okay. I guess the pro to that is 
that since we are intertwined with our respective regional 
partners here, we communicate on resources and staffing and 
stuff.
    Ms. Norton. So have you used local resources sometimes in 
order to keep the trains running?
    Mr. Kubicek. Not for the trains, to keep running and stuff, 
but say, for instance, in bus operations we might coordinate 
with other police departments and events. So there is a lot of 
intercommunication keeping these various systems running. So 
there is a lot of information that is shared.
    I guess from a pro standpoint, or looking at it from the 
opposite side, is that, us having the ability to apply for it 
directly in some ways would lessen our paperwork and processing 
going through the bureaucracy. But I am not really sure if that 
would deter from other regions.
    Ms. Norton. I am literally trying to find, I exercise a 
presumption against paperwork. I am a Democrat. I like 
government. People hate government in part because they see 
barriers for which there has been no explanation. So if there 
is an explanation you have given of some sharing of funds, I 
can understand that, but I know he has jurisdictions.
    Would you prefer, given what you are having to do with 
respect to your own jurisdictions, Ms. Williams, Mr. Muth, Mr. 
Hartmann, would you, given your relationship with WMATA, prefer 
that WMATA come through you in trying to get its expenses due 
only to it? And if so, why?
    Ms. Williams. I can certainly speak, of course, for the 
District. We work very closely with WMATA every day, and so I 
believe that we have a tremendous relationship from everything 
to making sure that we notify residents in the area of train 
delays, to providing guidance to WMATA regarding places where 
we see there being problem areas related to snow removal.
    So that is something that was ongoing throughout each of 
the storms. And we worked very closely with them to try to 
provide intelligence that would help them to help us to inform 
residents about the capabilities of the system.
    As it relates to the reimbursement request for WMATA from 
FEMA, we have worked very closely, again, with WMATA 
representatives to ascertain the costs that were associated to 
the District or attributed to the District of Columbia's rail 
lines that went either to Virginia or to Maryland, and have 
been able to very closely divide up that piece of the pie that 
is the District's responsibility.
    Certainly, it is our hope that we would be able to work 
very closely with FEMA to be able to help WMATA to realize the 
full reimbursement or at least the allotted reimbursement. I 
don't see it as being a tremendous challenge in terms of its 
practice. Theoretically, I can see it being burdensome for 
WMATA in that they would need to do the same exercise three 
times. So that could, of course, present a challenge.
    There has been an opportunity for WMATA to work very 
closely with the District to actually combine all of those 
efforts and use just one State administrative agent. I will use 
that term because we do that with other Federal funds, and that 
was back in 1996 when all three jurisdictions actually did 
report through the District of Columbia for WMATA to be able to 
realize its reimbursement.
    Ms. Norton. They report through the District of Columbia, 
then?
    Ms. Williams. That did happen one time. Yes, ma'am.
    Ms. Norton. In relation to a snowstorm was that?
    Ms. Williams. Yes, actually, it was.
    Ms. Norton. I wonder, Mr. Muth, Mr. Kubicek, is there any 
sense of that this time? Or is everybody just going to have to 
put in their funds? What is your view of this, Mr. Muth?
    Mr. Muth. Yes, I actually agree with Ms. Williams. We just 
look at WMATA as another entity that is applying through us, 
another sub-grantee.
    Ms. Norton. Just like Alexandria?
    Mr. Muth. So it really would not impact us. I can certainly 
understand the additional paperwork, though.
    Ms. Norton. You are a pass-through because whatever Mr. 
Kubicek tells you, you just have to pass that on.
    Mr. Muth. That is correct.
    Ms. Norton. You are not going to get into any arguments 
with them.
    Mr. Muth. No, and actually FEMA is going to be coming and 
interviewing them, not us. So they will sit down with them, go 
over their records and that is what will be submitted. So we 
are just to pass through the SAA for them. So I think we are 
fine as far as it goes right now.
    Ms. Norton. We are only interested in what is the fastest, 
best practice.
    Mr. Kubicek, you said in order to get what you are calling 
the full reimbursement, there would have to be a change of 
FEMA's snow policy. In what respect are you speaking?
    Mr. Kubicek. Just like everybody else, they are limited to 
this 48 hour rule. And so whenever we go through and we do our 
cost assessment of this $9.4 million that we are looking at, it 
is really over the span of the storm. It is also the impact of 
our project and any sustained damage.
    Ms. Norton. Are you aware that FEMA can extend the 48 hour 
rule to 72 hours?
    Mr. Kubicek. Yes, we are aware of it, but this point in 
time, that is what we are working off of and we are hopefully 
optimistic that it will be extended.
    Ms. Norton. Are any of you in the midst of asking for an 
extension to the 72 hour rule?
    Ms. Williams. The District of Columbia is seeking to have 
some leniency as relates to the 48 hours, as well as to the 
snow of record. That is something that is probably more 
problematic for States in terms of contiguous counties and 
their snow record requirements. But in February, as we know, 
there were technically two storms, and we were given the 
opportunity to either file a request for a declaration as one 
storm or two storms.
    If you go with the two storm scenario, you actually only 
have one storm that allows you to have that snow of record 
because in the second storm, the one that started on the 10th, 
while you didn't have the accumulation, you did have the 
blizzard conditions which is what made it more hazardous.
    So there were lots of challenges that made the February 
snow event much more challenging than the December snow event, 
down to the type of snow. It was a heavier snow. It was a 
wetter snow. It was much more difficult to remove, which was 
why you had so many snow-packed streets.
    As we have mentioned, there are obvious differences to our 
snow removal preparation just in terms of equipment versus a 
Northeastern State or location. I am originally from Buffalo, 
New York so I know that 20 inches is nothing. And I would be at 
school the next day and wondering how that happened so quickly.
    But you have a difference in the type of geography of the 
city, the layout of the city. We had driveways. We had wider 
streets. The city was prepared for snow events. In the mid-
Atlantic, we are simply not prepared for that and I believe 
that most jurisdictions or all jurisdictions did as much as 
they possibly could, and sought resources through either the 
EMAC Compact or just relationships and reaching out and picking 
up the telephone and finding friends in neighboring States that 
would be able to provide support.
    We had support come in from Boston at the far end of the 
snow event, but there is the possibility that the expenditures 
that the District of Columbia would incur for having those 
additional capabilities brought in would not necessarily be 
covered, given the limitations of the FEMA snow removal policy.
    So there is some question around the interpretation of the 
policy, the 48 hours, the 100 percent versus 75 percent, and so 
that is part of why we have made requests, first of all, for 
clarification and then for extension of the time period that we 
would be able to request reimbursement for.
    Ms. Norton. Well, I am not sure it will be done, but there 
are circumstances under which the State share can be waived.
    Ms. Williams, there is a regulation in the District of 
Columbia, and understandably so, that residents must clear 
their own sidewalks. We don't have any jurisdiction over the 
Federal Government. Did the Federal Government clear in front 
of Federal buildings systematically throughout the District of 
Columbia?
    Ms. Williams. It is my understanding that the Federal 
Government's facilities were cleared. There were some instances 
where we received phone calls at our unified command center 
with some concerns around sidewalks, but it was just a matter 
of us picking up a telephone and making a phone call and asking 
that people give attention to areas that perhaps had not been 
given the appropriate attention.
    There were also several opportunities for the District of 
Columbia's contractors and/or employees to provide support to 
Federal Government by helping with clearing activities of roads 
around facilities so that employees would be able to traverse 
to and from their places of business.
    Ms. Norton. Now, for you and for Mr. Muth, I have a 
question about how the local jurisdictions decided to close 
down the government, because there was a difference, now we 
understand the different jurisdictions and the different rates 
of snowfall because all of that is understood.
    The District of Columbia, for reasons that also ought to be 
clear, is often able to stay open longer. That is the advantage 
of living in a city with public transportation. And even under 
the worst conditions, it is better public transportation than 
other places.
    And as I understand it, for all but two days, the District 
remained open, but one of those days seemed to show very little 
regard for the very questions I put to the Federal Government, 
which is: How in the world do you expect even your emergency 
service people to get to work? And apparently, the District 
incurred a lot of criticism on one of those days for keeping 
the government open when it looked like everybody else, 
including the Federal Government, was closed down.
    Now, let me ask you, have you had any communications with 
the other jurisdictions if you believe it might have been wiser 
to close it down for at least the day that the whole region was 
paralyzed? Would you do it differently on that day?
    And why you, Mr. Muth, decided to close on that day? Was 
there any conversation across jurisdictional lines so that 
people could have learned from others' experiences? For 
example, Maryland and Virginia ultimately got more snowfall 
than the District of Columbia did. So if you could explain how 
you decide when the government when the government will be 
open?
    And I would also like to ask both of you how emergency 
service workers will get to work, because they apparently must 
come to work in any case.
    Ms. Williams, do you want to start?
    Ms. Williams. Sure. Certainly, we are reviewing our actions 
of both of the snow events to make sure that going forward, we 
are engaging in practices that, of course, or really do take 
into account what is reasonable and what we can fully expect 
employees to be able to do.
    I believe that part of our reason for moving forward with 
opening government was based on our assessment of the 
facilities that employees would be going to, and many of the 
main arterial roads that there would be the opportunity for 
employees to make in to their places of work.
    Ms. Norton. Well, of course, notoriously, much to our 
regret, but there is nothing you can do about it, the great 
majority of your workers don't even live in the District of 
Columbia. So you can open all the arteries you want to, and 
nobody may be able to get to work.
    Ms. Williams. And again, that is something that we are 
looking at as we analyze our after-action reports and look at 
the information that has been provided to us not just from 
District government agencies, and not just from our partners in 
the region, but also from residents who are sharing with us 
their concerns about things that they felt that we could do 
better.
    We want to make sure that we are listening with very open 
ears and not looking with jaundiced eyes at the opinions of 
folks who may have felt that we probably should have done some 
things differently. We don't claim to be perfect, and certainly 
we are learning every day.
    There was information that we had based on what we 
witnessed ourselves that made us feel confident in opening. If 
we had the opportunity to do it again, I am not sure that the 
decision would be the same. But our commitment was to make sure 
that we would be able to provide continuous city services to 
residents, businesses, partners of the city who needed to have 
that. And so that is why we worked very hard to make sure that 
we could open.
    But again, we are looking at all of our activities to 
ensure that in fact we were doing the things that were in the 
best interests of the communities that we serve.
    Ms. Norton. Well, I appreciate the way you are using the 
experience to try to figure out how to work the next time.
    Before you answer the same question, Mr. Muth, may I ask if 
all the jurisdictions, and it is Ms. Williams' testimony that 
reminds me of this question, are doing after-action reports so 
that internally you can learn from this experience?
    Mr. Muth. Yes.
    Ms. Williams. Yes.
    Ms. Norton. This is very important. It makes you think what 
to do again.
    Mr. Schwartz, if you won't mind my constantly referring to 
the military, the military doesn't even win a battle and said, 
okay, everybody, let's pop the champagne. The military comes 
back and says, we won the battle; now, what did we do wrong? I 
am not trying to militarize the jurisdictions, but the reason 
that the National Guards and the Armed Forces of the United 
States have been so successful in their work is they are not in 
the self-congratulatory business. They leave that to us and 
they know we love them and appreciate them, just as we do our 
emergency service workers. But they come back even from a 
successful event, much less an untoward event like this, and 
yes, figure out what they did right, but are far more 
interested in what they could have done better.
    Mr. Muth, would you like to answer the same question I 
asked Ms. Williams?
    Mr. Muth. Yes, ma'am. Regarding the decision to close 
government, that is basically made in concert with a bunch of 
different directors of agencies, Department of Budget and 
Management. I was asked my opinion from a public safety 
perspective.
    Ms. Norton. So that is raising an internal matter as 
opposed to whatever the other jurisdictions are doing.
    Mr. Muth. Right. But what I found in even my experience at 
the local level, many times they will look for the State to be 
the lead. So if the State is going to close or liberal leave 
for their employees, many times the jurisdictions will follow 
suit, not always, but many times they will.
    But we do offer liberal leave, which an employee if they 
can't come to work for whatever reason, they are just charged 
the leave day, a vacation day or whatever so it gives them that 
option.
    As far as essential employees go, though, we are required 
as essentials, as everybody else said, to be there. I spent 30 
years in the Fire Department and I remember many times getting 
to work 12, 15 hours before my shift started because a storm 
was coming because that was my responsibility.
    At our Emergency Operations Center, I spent over 96 hours 
straight there, as many of my staff did, and we bunk out in the 
offices, in the rooms and those types of things.
    Ms. Norton. Now, who stays in place as a staff, is what you 
are saying.
    Mr. Muth. You get there and you stay there. And that is the 
responsibility of the critical public safety agencies. I am not 
sure that will ever change from that degree.
    Ms. Norton. Mr. Kubicek, you mentioned in your testimony an 
issue that raises a chicken and egg question for me. You spoke 
about the snowfalls, briefed by the National Weather Service, 
and then looked at individual conditions and operational 
decisions. For example, you say, are schools or other bus 
systems open or closed? Mr. Kubicek, I submit that they are 
looking first to see whether you are going to be open before 
they make a decision whether they should close. Who ought to 
act first, given the importance of WMATA to all that happens in 
the region, WMATA or the local jurisdictions?
    Mr. Kubicek. It is WMATA. I mean, again, we understand our 
importance in this region. If we do close or we are opening up 
early or late, it has a ripple effect throughout the entire 
region. So this continuity of operations is very, very 
important for us, the overall communications.
    And again, we are also dependent upon the jurisdictions, be 
it Virginia or Maryland or the District of Columbia. As these 
storms and stuff role through here, we have to communicate with 
them in different factors to see what the status is taking 
place. We might be getting a lot of snow in Virginia. In 
Maryland, it might be a little bit clearer and a little bit 
slower. So it is really monitoring these things and 
communicating on an hour by hour basis sometimes.
    Ms. Norton. Mr. Kubicek, given the fact that your Metro 
line, even your buses often travel through multiple 
jurisdictions, what difference would it make if the schools 
were closed in the District but open in Maryland? What 
difference would that make since you will have people from the 
District, for example, the personnel having to go. We have 
reverse commuting throughout this region.
    I am not sure what difference it makes what is open in each 
jurisdiction to whether or not WMATA's buses and Metro lines 
should in fact continue as if this were any other day of the 
week.
    I understand everybody needs to know whether WMATA is open 
or shut, but you see that even closing down your above-ground 
closed down the Federal Government. So if I am a local 
jurisdiction, what do I first want to know? The first thing I 
want to know is, is WMATA open and are the buses running. Then 
it seems to me a whole set of other things fall into place.
    Do you operate first and foremost understanding your effect 
on the rest of the region? Or do you look to the region and 
what it is going to do in its various locations in deciding how 
you should operate above ground, below ground, how much below 
ground, how much you can still operate, et cetera? I mean, 
which comes first? Do you see yourself as the first and primary 
actor? Or do you simply see yourself as a partner along with 
the rest of the other jurisdictions?
    Mr. Kubicek. I see ourselves as a very important partner. 
We take our role extremely serious in this overall process. And 
as we evaluate our services, we also understand that we do not 
want to be operating in a condition where we could not be 
supported by them.
    For example, the operations of whenever we had like really 
heavy, aggressive deep snow, if we go out there and we strand a 
rail car or, say for instance, you have a catastrophic type 
event, you are going to tax these other regional services to 
support us.
    So we are doing our safety first, primary, to make sure 
that can operate efficiently and effectively. But at the same 
point in time, as we move forward with our operations, that we 
will task other resources and we have to very conscientious of 
that as well. So it is a very fine line.
    Ms. Norton. I do know you to some extent tax other 
resources, and I do want to say for the record that I regard 
WMATA employees as nothing short of heroic. And I saw what you 
did during the unprecedented inauguration. I have never seen 
anything like it. That whole inauguration was an emergency for 
you.
    And I do know that you operate these trains when many think 
they would not be operating. But I am concerned that WMATA be 
understood for what it is, given a region without borders, 
perhaps the first among firsts.
    I do want to ask you, Ms. Williams, the difference between 
the District's so-called snow plan and its response plan. 
Because as we understood it, the snow plan came under the 
Department of Transportation, which is not an emergency 
management agency. Whereas the direct response plan comes under 
you, does it, and your agency?
    Ms. Williams. The District response plan is administered 
and managed by the Homeland Security and Emergency Management 
Agency. He snow plan that is managed and developed by the 
Department of Transportation in close consultation with the 
Department of Public Works, is but a portion of the overall 
District's response plan.
    So the District response plan does address the all hazards 
approach to preparedness. And so any agency that has an 
emergency response plan or a COOP plan is subject to the 
District response plan.
    So depending on the type of event, there is a different 
lead entity for the actual response. In the event of a snow 
event, the lead entity for the District of Columbia was in fact 
the District's Department of Transportation, in close 
cooperation with the Department of Public Works. And they 
helped to lead that effort in terms of snow removal. But every 
other aspect of the overall response was something that was 
managed by the District of Columbia's Homeland Security and 
Management Agency. And in fact, we helped to inform the snow 
plan.
    We were involved in all of the snow planning meetings. 
Likewise, the Department of Transportation and the Department 
of Public Works are involved with all of our emergency planning 
meetings, as are all of the other 16 ESF, or emergency support 
functions, that are operating here in the District of Columbia.
    So it is a cooperation. It is a cooperative agreement. The 
snow plan is something that is a requirement. I would dare say 
that every jurisdiction has one or something similar to it, 
just as we have a flooding plan, just as we have a plan around 
removal of garbage. There is a plan for everything.
    The hope is that we are exercising those plans effectively 
and making sure that we are meeting the objectives of those 
plans.
    Ms. Norton. Do the other jurisdictions have snow plans 
apart from their response plans or as part of their 
responsibilities? Ms. Williams has testified that essentially, 
as I take it, it is a subset of your emergency response plan to 
have a snow plan.
    Do the rest of you have a snow plan as well?
    Mr. Hartmann. Madam Chairman, in Alexandria, I think we 
have our typical snow plan which is probably eight to 12 inches 
and less. But since December, we have developed a whole other 
set of planning which shifts us from a transportation-oriented 
plan to one that is definitely public safety-oriented plan.
    And I think we are all probably together reevaluating all 
our plans in light of this incident. And I think through the 
COG and a few of us meet on a monthly basis, Ms. Williams and 
Mr. Muth, we meet every month and we talk about these things. 
And we know that we want to prepare the best we can for this 
region. And this past occurrence has really kind of caused us 
to, I believe, and I will speak for all of us, and correct me 
if I am wrong, look back at these plans. And I think your 
calling this hearing today was another catalyst for that.
    Ms. Norton. Thank you very much.
    Mr. Hartmann, I did want to clarify for the record how a 
city which, and a given State--let me give you the law 
professor's hypothetical--an emergency may occur in one part of 
the jurisdiction and the rest of the State be left free of it. 
That certainly was the case in 9/11.
    So let us assume you have a snowfall that cripples, as this 
snowfall did most of the region, somehow manages to cripple 
Alexandria, but the rest, Fairfax is going fine and the rest of 
the State is fine. Yet you must go through the State because it 
is State entities that are recognized under FEMA, except for 
local entities like WMATA.
    How does a city work to make sure that in your cases the 
Commonwealth in fact asks correctly for what has occurred? Has 
the Commonwealth been involved because it is a major event? 
Does that take care of it? How does the city make sure that it 
will be reimbursed for what it had to do and the expenses it 
laid out? Or does the State, in your case the Commonwealth, 
pick up most of the cost?
    Mr. Hartmann. Well, a couple of nuances that are important 
with Alexandria. We operate under a charter and we are an 
independent city in Virginia, which means that we also have no 
county overlay for us. But we also a Dillon's Rule State, which 
means that the State has a lot of control over what we do.
    The State is very much a partner with us. The State of 
Virginia Department of Emergency Management, we are able to 
request of them, as we had done in the February storms. 
Certainly through the EMAC process we did a request for 
additional resources and received those.
    They were not experiencing the same level of emergency in 
Richmond that we were, but they were very much a partner, and 
that really worked real well, frankly.
    On a typical basis, however, Northern Virginia has another 
system, especially where it involves mutual dispatching of fire 
and EMS assets. So at any one time among Fairfax, especially 
among Fairfax and Alexandria and Arlington, the closest 
available unit for any fire call or EMS is initiated through 
all three dispatch centers for Northern Virginia. It is 
something that is very good and robust. We don't do it as much 
with law enforcement, but we have much better coordination.
    And in fact, the mutual aid agreements that we have with 
Maryland and D.C. are probably unmatched anyplace in the 
Country. And again, a lot of that I think goes back to how we 
operate as a regional system, the lessons learned from 9/11, 
our continuous partnerships with Maryland, Virginia, how we all 
coordinate together, the senior policy group and all the chief 
administrative officers.
    It is truly a robust system and I think part of the reason 
my name may have gotten on this list is because I am one of its 
biggest fans and champions. I think we have got great 
partnerships that we can only make better. And I think we also 
know that when we run into obstacles that don't serve us, we 
can also collectively figure out how to get around those 
obstacles.
    So the Virginia piece is the Virginia piece, but we have 
the other side of the river as well that is just as important, 
because we all know that when big things happen, they happen to 
all of us and we all have to be in a position to support each 
other.
    Ms. Norton. Yes, thank you. It is good to hear because it 
is not unique that you have local entities within a region that 
must cooperate, but I do not believe that there is any region 
in the United States where you have three States essentially 
together. And what happens in one, especially with respect to 
natural events, happens in another, and you better realize it. 
To invoke jurisdictional boundaries then would be itself a 
disaster.
    I only have a couple more points. One is something that 
almost all of you have raised about criteria, the criteria for 
measuring when a disaster occurs with respect to snow. Now, I 
want you to know the Subcommittee has sat through many hours of 
hearings from jurisdictions across the Country. They always 
want more money, and the Federal Government's job is to contain 
disaster. The Federal Government is not there to do all that 
must be done to clean up for disasters.
    That is why you need a presidential--most emergencies don't 
have anything to do with serious damage, flooding and ice 
storms, and yet we are not there because the State is supposed 
to take care of that. And believe me, coming from this region, 
I am with you to try to think whether or not this severe storm 
guidance is fair. And I would only invite you, because I have 
heard your testimony, to consider what the Subcommittee has to 
consider. If not X, then what?
    I heard Mr. Muth's notion, well, the only event which 
measures it by a quantity, but that is because we have other 
ways to know whether or not a flood does damage. And it would 
not be, a heavy rain would not tell us if we measured by the 
inches of rain virtually anything about damage. So there are 
other criteria we can look for when it comes to flooding.
    And we know what we pay for since we pay for some property 
damage. We pay for some public works damage. And of course, in 
the case of snowfall, what are we really paying for? We are 
trying to get people from A to B. And so one of the things the 
Subcommittee has to consider and that FEMA has to consider is 
that is what we are basically paying for, removing the snow.
    They, of course, say it has to be 48 hours of snow because 
they have calculated that that is when, for the most part, the 
most serious snow falls. We always press FEMA to use its 
regulations maximally, so we do note that they can go to 72 
hours.
    I would invite you all to at least submit for the record. I 
am unable honestly and intellectually to say to FEMA, here is 
an alternative criteria, except ones I would love because I 
happen to represent the District of Columbia. I have got to 
satisfy myself as a Federal official and as Chair of a 
Subcommittee looking for this disaster and in the future, that 
I am looking at a revision of criteria that is fair to all 
concerned.
    And the Subcommittee is very willing to look at this, but 
remembering that you suffer from having never had such an event 
before. But I do invite you to submit for the record, 
recognizing that we ourselves will be pressing for FEMA to use 
its maximum authority. And I am telling you, one of the reasons 
I am doing it. I am pressing for them to use their maximum 
authority because the Federal Government was as deeply 
implicated as any of you sitting before us today.
    So the point is for you to keep us all open, remembering 
that you open the Federal Government for us, too. As a Member 
of the Homeland Security Committee, I am concerned that some of 
the security personnel be able to get to where they are. And I 
know that that depends as much upon you. So we are most 
interested in this as almost a, so far as we can tell, first of 
a kind event where the Federal Government has been just as much 
incapacitated and in some cases more. The District was open 
more days. Maryland was open more days, more than the Federal 
Government.
    And when you consider what is at stake, that this city and 
this region is headquarters for the United States of America, 
if you can submit to this Subcommittee a basis for judgment 
beyond what FEMA already uses, remembering that FEMA used it 
not having in mind the District of Columbia or the National 
Capital Region, but across the United States, using record 
snowfalls, if they don't use record snowfalls, then what will 
you and I use? Whose guidance and uniform guidance is what we 
are interested in.
    When they say records, if they say eight inches, well look, 
Mr. Kubicek said they can even handle eight inches. So you have 
to watch out how you do your criteria. A severe snowstorm, we 
better say that because Ms. Williams comes from--is it 
Buffalo?--watch out. By all rights, they would be getting money 
every other week from FEMA. So we have to use words that 
capture the event, apply it fairly to the local jurisdiction, 
allowing for the greatest flexibility, keeping in mind the 
damage that was done.
    Now, we asked Dr. Petersen here because we liked two 
things. First, we want to hear from the Federal Government. 
Then we want to always hear from what we call real people. That 
is you, the people who are on the ground, because whatever the 
government tells us is what it does and what it always does. We 
want to know how those who are where the Federal Government 
either must go to determine reimbursement or delivers its 
services, how they fared.
    Then we try to find some global witness. And I was 
concerned at your testimony, Dr. Petersen, because you spoke 
about there being no single entity in charge of a disaster. You 
say in the District of Columbia. What do you mean by that? I 
mean, the Mayor got the National Guard to cooperate, it seems 
to me, fairly well. He got people here. He kept the government 
open more than others, almost beyond what he now thinks might 
have been best, but he wanted to keep the government open. 
Wasn't the single entity in the District of Columbia the Mayor 
of the District of Columbia?
    Mr. Petersen. No, ma'am. What I was speaking to was the 
region.
    Ms. Norton. So you are saying there is no single entity in 
charge of a disaster within the region?
    Mr. Petersen. There is no single entity. And this is a 
concern that has been raised by some entities related to 
communications issues where critical information will come from 
a variety of sources, including the Weather Service, including 
the Office of Personnel Management.
    Ms. Norton. But what about that COG phone call that all of 
them were in on. Isn't that good enough?
    Mr. Petersen. Well, ma'am, if they are tasked with public 
communications, it is not apparent that you go to MWCOG for 
official information regarding whether schools will be open, 
what roads are available from various jurisdictions.
    Ms. Norton. But the schools close or open according to, in 
our system of government, what the jurisdiction decrees.
    Mr. Petersen. Yes, ma'am, and the larger point is that we 
look at it. We are at a confluence of several levels of 
government, all of which have pieces of information that may be 
of regional import, maybe of only local import, and there is no 
mechanism for sorting what that information of regional import 
is.
    Ms. Norton. Well, in what you have heard here today, do you 
think that there could be better coordination? I mean, these 
people are all on the line to one another. Ms. Williams, and 
Mr. Hartmann and Mr. Muth meet monthly, I believe. These folks 
get on a phone call. There's been an emergency communications 
center since 9/11 that all of them are a part of in the event 
of a disaster.
    What would you suggest is greater coordination? And as much 
as we are a system of local and State government, what do you 
suggest might be done to increase coordination?
    Mr. Petersen. At what level? I mean, I am not entirely 
clear.
    Ms. Norton. Well, that is what I am asking you. I mean, 
they seem to talk to one another. They recognize that they will 
be held accountable in the District of Columbia alone.
    Mr. Petersen. Yes, ma'am.
    Ms. Norton. And that Mr. Muth is going to be held or his 
job is going to be held, no matter what some other jurisdiction 
says, and even the President of the United States can't say, 
maybe he could say to the District of Columbia, but he 
certainly can't say to Maryland what to do unless it is an 
event, a terrorist event of some kind. And even then he is 
limited because the National Guard can be called out, unless he 
nationalizes it, by the Governor.
    So you have these things built in to make sure there is 
local control. I can see your criticism if you are talking 
about Federal areas, like Congress, like the courts. For 
example, I joked to my staff, don't pay attention to anybody. 
If they tell you the government's been closed, this is a 
separate branch of government. It is called the Legislative 
Branch. We are not controlled by local jurisdiction. Guess 
what? We are not even controlled by the Executive Branch 
because they can close down their units, and you may still have 
to come to work.
    Now, of course, if you close down the Federal Government, 
mean old Eleanor is not going to tell my folks to come because 
I am going to have a hearing the next day. But I hear you. I 
have a hard time understanding what these State and local 
entities could have done. I am not sure at the same time, since 
nobody told me, by the way, in the Congress, and I am not even 
sure of this, if the Speaker could tell us to stay at home. 
There are certain ways in which we are independent.
    But let's assume the Speaker said nobody better be seen in 
the House of Representatives today. I can understand that that 
branch of government could work in that way.
    The courts may depend upon other branches of the Federal 
Government, the Executive. And I am not sure, I can understand 
the differences among the local jurisdiction and the States. 
What I don't have a sense of in a snow emergency, a natural 
emergency, not a security emergency, I don't have a sense of 
coordination among the entities of the Federal sector.
    And FEMA didn't help me much to know that they bring the 
Federal sector together either. So I don't know who it is in 
the event of a natural emergency is really in control here, 
although I am not sure I need to know when it comes to the 
States and localities since there are constitutional lines that 
decree that they will have certain kinds of jurisdiction no 
matter what anybody else says.
    I am asking you about really the Federal sector.
    Mr. Petersen. Two things, if I could. I would argue that 
the communications have improved over time. For example, there 
is an opportunity for regional alerting systems, which are 
controlled at local level by each of the jurisdictions. You can 
go into a centralized Web site and be directed to the various 
jurisdictions within the NCR that provide it. And that is 
arguably an improvement over what has been in the past.
    Not everyone participates, and as a user, you need to know 
which sets of information that you have. And I would note that 
some are more forthcoming than others in terms of the sorts of 
alerts that they issue.
    Now, regarding the emergency preparedness and 
communications within coequal branches beyond the Federal 
Executive, each of those are controlled according to protocols 
and priorities established within each branch. So Congress has 
a set of plans and they tend to devolve according to chamber. 
And the Architect of the Capitol, for example, was responsible 
for keeping everything open throughout the weather events in 
December and February. The Judiciary has a separate plan.
    When incidents that affect those particular parts of the 
world are going to have a spillover effect on the rest of the 
region. That is one area where some observers have noted 
concerns about communications.
    Ms. Norton. I hear you and I understand what you are 
saying. I would say to all of you one concern I have as I close 
this hearing is the way in which local media hype the weather. 
It must be good for the ratings, flip the channels, flip the 
stations and you can't get anything but their version of the 
weather.
    If there were any consistency, I would like to see. I would 
like to see some kind of official notice. They do a fabulous 
job. I would say over-fabulous job. They do leave some of us, 
because they show us these graphics, and if you can figure it 
out for yourself.
    But frankly, I must tell you in both of these storms, I 
tended to discount them because I have had too many Chicken 
Littles called on us, particular, Ms. Williams, those of us in 
the District of Columbia. We really should discount them 
because it is difficult to, the weather is far different even 
in places in the region where you can get to in an hour than it 
is in the District of Columbia.
    And I don't know if there is any way to do this, but I 
can't imagine what it must be like for somebody with a five 
year old that needs to go to day care to hear these multiple 
versions of the weather without any official sense. So they 
have to wait until the schools open or close to really decide 
what the weather is.
    And to the extent that in your dealings across regional 
lines--I am sorry, jurisdictional lines--even recognizing that 
you would be saying different things in different 
jurisdictions. Ms. Williams might be wanting to tell local 
stations one thing in the District. The District of Columbia 
tells us that it expects far less X, so that people get an 
early sense of the notion which is usually based on bands.
    They have to tell you it will be between, for example, I 
now know when they say it is 50 percent it is going to rain, it 
ain't going to rain here; 50 percent really means it is 
probably not going to rain. So the rain just helps us to know, 
but to the extent that there is an ability in the local 
jurisdictions to interpret what the weather means in order to 
more fairly and fully inform local jurisdictions, I believe 
that would in fact be of some service to the local 
jurisdictions.
    The local WAMU has asked us to enter into the record their 
involvement in the disasters, or information about the 
disaster, and I do want to pay tribute to those I have just 
criticized for hyping the weather. I do want to pay tribute to 
them for keeping us informed, over-informed, and informed more 
than we ever wanted to be informed. But that is certainly 
better than not being informed at all.
    Your testimony, the testimony of all of you has been 
particularly important to this Subcommittee and I want to thank 
you on behalf of this region and the Subcommittee for appearing 
here today.
    This hearing is closed.
    [Whereupon, at 5:13 p.m., the Subcommittee was adjourned.]

</pre></body></html>
